U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                        Review of the Department’s
                         Preparation to Respond to
                              a WMD Incident
                                      May 2010




                                      I-2010-004

                                EXECUTIVE DIGEST 



       The use of weapons of mass destruction (WMD), whether by a hostile
nation, a terrorist group, or an individual, poses a potentially serious threat
to the United States. One of the greatest concerns is that a WMD may fall
into the hands of terrorists or that terrorists will develop their own WMD.
WMDs include any device that is intended to cause death or serious bodily
injury to a significant number of people through the release of toxic
chemicals, disease organisms, or radioactive material. 1

       The federal government has taken various steps to prepare to meet
that threat. Among those steps has been the issuance of national policies,
such as the National Response Framework, issued in January 2008 by the
Department of Homeland Security and approved by the President. The
National Response Framework established a comprehensive approach for a
unified national response to natural and man-made disasters, including
WMD incidents. The National Response Framework directs the Attorney
General to appoint a Senior Federal Law Enforcement Official to coordinate
and direct federal law enforcement support activities related to a critical
incident. Further, the National Response Framework includes annexes
called Emergency Support Functions (ESF) that assign specific
responsibilities to federal agencies in the event of a disaster. Under the
National Response Framework, the Department of Justice (Department or
DOJ) is assigned by ESF-13 the responsibility for coordinating federal law
enforcement activities in response to a critical incident, such as a WMD
attack, and for ensuring public safety and security in the event an incident
overwhelms state and local law enforcement.

      This review evaluated the readiness of the Department and its
components to respond to a potential WMD incident. In addition, we
examined the readiness of Department components’ field offices in the
National Capital Region (NCR) to respond in a coordinated way to a WMD
incident. 2




       1 Annex 5 to National Security Presidential Directive-17/Homeland Security
Presidential Directive-4, Combating Weapons of Mass Destruction, February 26, 2008.

       2   The National Capital Region is composed of the District of Columbia and nearby
jurisdictions in Virginia and Maryland.


U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

      Our review found that the Federal Bureau of Investigation (FBI) has
taken appropriate steps to prepare to respond to a potential WMD attack.
The FBI has implemented a headquarters-led program that has established
WMD response plans, provides WMD training to its staff and regularly
conducts and participates in WMD exercises.

       However, we concluded that the Department of Justice as a whole and
components within the Department have not implemented adequate WMD
response plans. As a result, the Department is not fully prepared to provide
a coordinated response to a WMD incident. For example, the Department
does not assign one entity or individual with the responsibility for the
central oversight or management of WMD incident response. The
Department has not updated its policies to reflect recent national policies,
and the Department’s operational response policies and plans have not been
fully implemented. Moreover, no components other than the FBI have
specific WMD operational response plans or provide training on responding
to a WMD incident.

       We also determined that the Department is not prepared to fulfill its
role, assigned to it under the National Response Framework’s ESF-13, to
ensure public safety and security in the event a WMD incident overwhelms
state and local law enforcement. The Department designated the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) as the lead agency to
implement this requirement, but we found that the Department and ATF
have not fulfilled the Department’s role for coordinating the federal law
enforcement response activities to an ESF-13 activation. 3 For example, the
Department and ATF have not made personnel assignments to manage
these activities, and ATF has not developed a catalog of law enforcement
resources – people and equipment – available to be deployed in the event of
a WMD incident.

      In the National Capital Region (NCR), we found that law enforcement
agencies coordinate regularly because of the preparations and cooperation
required for the frequent special events held there. However, improvements

       3  ESF-13 activities include: (1) providing basic law enforcement assistance such as
conducting routine patrols and making arrests; (2) issuing identification badges to
emergency responders and other personnel needing access to a controlled area and
verifying emergency responder credentials; (3) providing security forces to control access to
the incident site and critical facilities; (4) providing officers for traffic and crowd control;
and (5) providing for protection of emergency responders and other workers operating in a
high threat environment.


U.S. Department of Justice                                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
are needed to ensure Department components’ field offices are prepared to
quickly and safely respond to a WMD incident. For example, the FBI’s
Washington Field Office is the only Department component field office in the
NCR with a written plan and checklist to respond specifically to a WMD
incident in the NCR. Moreover, most component field offices in the NCR
have conducted little or no planning specifically for responding to a WMD
incident and have no defined role in the FBI’s WMD response plans. We
also determined that some component officials in the NCR field offices are
not aware of ESF-13 or that the Department designated ATF as the lead
agency in carrying out the Department’s responsibility to ensure public
safety and security if ESF-13 is activated in the aftermath of a WMD
incident.

       In the sections below, we discuss in more detail the status of the
Department’s and its components’ preparations for responding to a WMD
incident, as well as the preparations of Department component field offices
in the NCR.

The FBI has taken appropriate steps to prepare to respond to a WMD
incident.

       We concluded that the FBI has taken appropriate steps to prepare to
respond to a WMD attack. Part of the FBI’s primary mission is to prevent
WMD incidents and investigate WMD threats. The FBI also has a WMD
response program managed by the FBI’s Weapons of Mass Destruction
Directorate (WMD Directorate). The WMD Directorate’s mission includes
managing WMD investigations, assessing and responding to incidents
involving the use or threatened use of WMD, and conducting exercises to
test the FBI’s ability to respond to a WMD incident.

      The FBI has developed various plans, handbooks, and other resources
to guide its staff in responding to a WMD incident. Further, the FBI
regularly provides its staff with training specific to WMD incidents. The FBI
provides WMD training for all new Special Agents during their initial FBI
Academy training, and FBI WMD Coordinators and Intelligence Analysts are
trained in specific WMD areas of emphasis. The FBI also provides training
to a designated cadre of its Special Agents in Charge to serve as Senior
Federal Law Enforcement Officials. 4


       4  The National Response Framework authorizes the Attorney General to appoint a
Senior Federal Law Enforcement Official, in appropriate circumstances such as a WMD
incident, to provide operational coordination and direct the federal law enforcement support
operations related to the incident.


U.S. Department of Justice                                                            iii
Office of the Inspector General
Evaluation and Inspections Division
      The FBI also regularly conducts and participates in WMD response
exercises. The FBI’s data showed that from fiscal year (FY) 2005 to
FY 2009, its field offices participated in at least 936 WMD exercises. 5
However, we found that the preparation of after action reports to document
deficiencies identified during WMD response exercises is inconsistent, which
hinders the FBI’s ability to identify and address those deficiencies.

The Department is not fully prepared to provide a coordinated
response to a WMD incident.

      In contrast to the FBI, we found that the Department as a whole does
not have policies or plans for responding to a WMD incident. Further, other
than the FBI, Department components’ preparations for responding to a
WMD incident were not well coordinated. Department personnel (other than
FBI staff) receive little training in the unique requirements associated with
responding to a WMD incident. We also found that the Department does
not have central oversight or management of WMD incident response policy
development and planning for responding to a WMD incident. The
management of the Department’s response program is uncoordinated and
fragmented, with some response functions being handled by a Special
Assistant to the Deputy Attorney General and others by senior staff at the
National Security Division (NSD), the Executive Office for United States
Attorneys (EOUSA), and the FBI.

         The Department has previously identified the need for coordinated
emergency management at the Department level. In January 2006, the
Assistant Attorney General for Administration circulated a proposed DOJ
Order that assigns responsibilities for emergency response to a Crisis
Management Committee. However, the proposed Order has not been made
final. 6

       During our review, the Department began to take additional action in
this area. In August 2009, the Deputy Attorney General directed the NSD,
Office of Legal Policy, EOUSA, and the Justice Management Division to each
designate a senior-level position to coordinate interagency response and
emergency management activities. However, we believe this latest approach
risks perpetuating a fragmented program because these individuals report
to their component senior management. We believe the Department needs

       5   The data provided by the FBI included 45 of its 56 field offices.

       6 As of May 2010, the Department components had commented on the proposed
Order and the Order was awaiting review by the Justice Management Division’s Office of
General Counsel.


U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
to assign a senior official to be responsible for coordinating across all
Department components the preparations and training to respond to a
WMD incident.

      We also found that the existing Department-level response policies
and plans are not in compliance with national policy and are outdated. The
Department’s policies and plans do not incorporate principles and
requirements of the National Response Framework or the National Incident
Management System, which establishes a standardized approach for
planning for and responding to all domestic incidents, including WMD
incidents. The Department’s Critical Incident Response Plan, which has not
been updated since it was approved by the Attorney General in May 1996,
does not address WMD incidents.

       Additionally, the Department’s policies and plans have not been fully
implemented. For example, while current Department policies establish a
Crisis Management Committee to determine the Department’s on-scene
response to an incident and an Attorney Critical Incident Response Group
to coordinate legal support during an incident, neither of these entities
exists.

       Finally, we found that no Department law enforcement component,
other than the FBI, has specific WMD operational response plans. ATF, the
Drug Enforcement Administration (DEA), and the United States Marshals
Service (USMS) each have groups that manage all-hazards responses, but
these groups do not include specific preparations for WMD incidents.
Further, although senior officials from all components told us they would
support an FBI response, ATF, the DEA, and the USMS do not maintain
operational response plans to respond to WMD incidents. 7 Also, except for
the FBI, the components have provided little to no training for responding to
a WMD incident and have rarely participated in WMD exercises. The other
components do not regularly participate in National Level Exercises
involving a WMD incident response or in WMD exercises at the regional,
state, and local levels.

The Department is not prepared to fulfill its role, assigned to it under
the National Response Framework’s ESF-13, to ensure public safety
and security in the event of a WMD incident.

      The National Response Framework established the Department as the
lead agency under ESF-13 to coordinate the use of federal law enforcement

       7  EOUSA (and the United States Attorneys’ Offices) and the NSD have developed
plans or guides for a legal response to a WMD incident.


U.S. Department of Justice                                                          v
Office of the Inspector General
Evaluation and Inspections Division
resources to maintain public safety and security if local and state resources
are overwhelmed during an incident. However, our review indicates that in
the event of a WMD incident, the Department is not prepared to coordinate
federal law enforcement activities to ensure public safety and security in
accordance with ESF-13. 8

      In January 2008, the Department’s lead component for ESF-13, ATF,
proposed a Concept of Operations Plan to provide a structure for the
Department to implement its ESF-13 responsibilities. As of March 2010,
that Concept of Operations Plan was still in draft, and several actions
essential to the Department’s ability to fulfill its responsibilities for
coordinating the federal law enforcement activities in an ESF-13 activation
remained incomplete. The incomplete elements include staffing national
and regional coordinator positions; training staff in ESF-13 operations;
cataloging law enforcement resources available in the event of an ESF-13
activation; participating in National Level Exercises to test preparedness;
and deputation of law enforcement personnel.

        We found the Department and ATF have not made all the necessary
personnel assignments to manage ESF-13 activities. At ATF headquarters,
the ESF-13 National Coordinator has been assigned, but a Deputy National
ESF-13 Coordinator has not been designated, and as of April 2010, ATF has
not filled 6 of the 13 other positions it has dedicated to ESF-13.

      In addition, ATF has provided minimal training in implementation of
ESF-13 responsibilities to ATF field office personnel, support agency
personnel, and state and local emergency operations officials. According to
ESF-13 staff, ATF has trained only its personnel in field offices that are in
states prone to hurricane activity for an ESF-13 activation resulting from a
hurricane.

       ATF has also not developed a catalog of law enforcement resources
available to be deployed from all ESF-13 agencies or Department
components in an ESF-13 activation because other agencies have not
responded fully to ATF’s requests for information. Further, ATF has not
tested its preparedness to carry out its ESF-13 responsibilities in National
Level Exercises or any other functional exercise involving a WMD incident.
Finally, ATF is still in the process of determining how ESF-13 law
enforcement personnel will be deputized as Deputy U.S. Marshals if ESF-13
is activated.


       8The National Response Framework outlines 10 specific responsibilities for the
Department to coordinate. See Appendix III for the Department’s ESF-13 responsibilities.


U.S. Department of Justice                                                          vi
Office of the Inspector General
Evaluation and Inspections Division
In the National Capital Region, with the exception of preparing for
special events, WMD incident response planning depends primarily on
FBI resources and capabilities.

      In the NCR, Department components regularly work with each other,
with other federal agencies, and with state and local law enforcement to
prepare to respond to critical incidents that may occur during the frequent
special events that occur in the NCR, such as presidential inaugurations
and visits by heads of state. As a result of the frequent cooperation and
coordination for special events, NCR field office staff told us they are aware
of other agencies’ roles and the resources that are available from them if a
WMD incident should occur during a special event.

       However, outside of special events, among Department components in
the NCR only the FBI has conducted WMD-specific planning or training.
The FBI’s Washington Field Office is the only Department component in the
NCR with plans specifically for responding to a WMD incident, and it is the
only NCR field office that provides WMD training to its response personnel
and regularly participates in WMD exercises. The FBI’s plan identifies how
the FBI will work with federal agencies outside the Department, state and
local law enforcement, and emergency response agencies, but it does not
include any stated role for the NCR field offices of the Department’s other
components.

       When we asked if they were familiar with the FBI’s WMD response
plan, officials from ATF, the DEA, and the USMS said they were not familiar
with the plan and had not asked to see it. Additionally, FBI exercise data,
from FY 2005 through FY 2009, shows that the FBI Washington Field Office
participated in 29 WMD exercises with state and local law enforcement, as
well as other federal agencies. However, the other Department of Justice
components did not participate in these or other WMD response exercises.

      We also found that some component officials in NCR field offices were
not aware of ESF-13 or ATF’s role as the Department’s lead coordinator if
ESF-13 is activated. We asked 12 NCR field office managers about ESF-13
requirements and assignments, but only 6 knew about ESF-13 and only 3
were aware of ATF’s designation as the Department’s lead coordinator. This
lack of familiarity could delay a coordinated federal law enforcement
response in the event a WMD incident or other disaster results in the
activation of ESF-13.




U.S. Department of Justice                                                vii
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

       Our review concluded that only the FBI has taken adequate steps to
prepare to respond to a potential WMD attack. The FBI has headquarters
and field office operations plans, handbooks, and other resources for
responding to WMD incidents. The FBI regularly provides WMD-specific
training to its personnel who are likely to respond to a WMD incident. The
FBI regularly conducts or participates in WMD response exercises, having
taken part in over 900 exercises from FY 2005 through FY 2009. The FBI
field offices track their participation in exercises, although after action
reports based on the exercises are not consistently prepared.

       However, neither the Department nor the components within the
Department have implemented adequate WMD response plans. The
Department has not designated an entity or individual to provide central
oversight of WMD-related activities, and responsibility for management of
the Department’s response program is uncoordinated and fragmented. The
Department has not updated its policies to reflect recent national policies,
existing policies have not been fully implemented, and we found no
Department policies or plans for responding to a WMD incident.

       Aside from the FBI, the Department’s other law enforcement
components’ preparations for responding to a WMD incident are also
lacking. Officials in ATF, the DEA, and the USMS indicated that they would
support the FBI’s response to a WMD incident. However, none of these
components has specific WMD operational response plans, provides training
for responding to a WMD incident, or regularly participates in WMD
response exercises.

      In addition, the Department has not adequately prepared to
coordinate federal law enforcement activities if it is called upon to ensure
public safety and security in accordance with ESF-13 in the event of a WMD
incident. ATF has not assigned adequate staff to ensure all ESF-13
planning and coordination activities required by the National Response
Framework are carried out. ATF has not provided adequate training in ESF-
13 responsibilities to its own staff or personnel from other ESF-13 agencies.
Additionally, ATF lacks comprehensive information on law enforcement
resources that could be deployed during a WMD incident.

      In the National Capital Region, coordination is aided by regular
preparations and cooperation required for frequent special events in the
region. However, other than the FBI, component field offices in the NCR
have no WMD-specific response plans or training and have not participated
in WMD-specific exercises. Moreover, we found a lack of awareness

U.S. Department of Justice                                             viii
Office of the Inspector General
Evaluation and Inspections Division
regarding the Department’s ESF-13 responsibilities and ATF’s authority to
serve as the lead coordinator for those activities, which could delay
coordinating federal law enforcement support to state and local law
enforcement in the event of a WMD incident in the NCR.

      In this report, we make five recommendations to help the Department
better prepare to respond to a WMD incident and to fulfill its responsibilities
under ESF-13. We recommend that the Department:

       1. Designate a person or office at the Department level with the
          authority to manage the Department’s WMD operational response
          program.

       2. Update the Department’s response policies and plan to conform
          them to the National Response Framework and the National
          Incident Management System.

       3. Require Department components to update their own policies and
          plans to reflect the updated Department guidance, and to reflect
          the need for adequate coordination among Department
          components in responding to WMD incident.

       4. Establish effective oversight to ensure that components maintain
          WMD response plans, participate in training and exercises, and
          implement a corrective action program in response to such
          exercises.

       5. Ensure that the Department is prepared to fulfill its emergency
          support function responsibilities under the National Response
          Framework, including reviewing the designation of ATF as the
          Department’s lead agency to coordinate public safety and security
          activities, approving a Concept of Operations Plan, and staffing
          national and regional coordinator positions.




U.S. Department of Justice                                                ix
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            x
Office of the Inspector General
Evaluation and Inspections Division
                                TABLE OF CONTENTS 



 INTRODUCTION ............................................................................... 1


 BACKGROUND ................................................................................ 4


 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ... 14


 RESULTS OF THE REVIEW ............................................................ 16


     The FBI has taken appropriate steps to prepare to respond to
     a WMD incident ........................................................................ 16


     The Department is not fully prepared to provide a coordinated 

     response to a WMD incident ...................................................... 23


     The Department is not prepared to fulfill its role, assigned to it 

     under the National Response Framework’s ESF-13, to ensure 

     public safety and security in the event of a WMD incident ......... 31


     In the National Capital Region, with the exception for preparing 

     for special events, WMD incident response planning depends 

     primarily on FBI resources and capabilities ............................... 36


 CONCLUSION AND RECOMMENDATIONS ..................................... 41


 APPENDIX I:         METHODOLOGY OF THE OIG REVIEW .................. 43


 APPENDIX II: EMERGENCY SUPPORT FUNCTIONS AND ESF 

              COORDINATORS .................................................... 47


 APPENDIX III: DEPARTMENT’S ESF-13 RESPONSIBILITIES .......... 50


 APPENDIX IV: THE OFFICE OF THE DEPUTY ATTORNEY 

              GENERAL RESPONSE TO DRAFT REPORT ............. 51


 APPENDIX V: OIG ANALYSIS OF THE OFFICE OF THE DEPUTY 

             ATTORNEY GENERAL RESPONSE .......................... 53


 APPENDIX VI: THE DRUG ENFORCEMENT ADMINISTRATION 

              RESPONSE TO DRAFT REPORT ............................. 58


 APPENDIX VII: OIG ANALYSIS OF THE DRUG ENFORCEMENT

               ADMINISTRATION RESPONSE ................................ 60



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                INTRODUCTION 



        In December 2008, the Commission on the Prevention of Weapons
of Mass Destruction (WMD) Proliferation and Terrorism issued a report
on the United States’ ability to protect
                                                 Biological Attack Scenario
itself from a WMD attack. The
Commission concluded that, without           Two individuals release 100 liters
concerted action to prevent it, a WMD        of aerosolized anthrax into the air
                                             of a major metropolitan city. More
attack is likely to occur somewhere in the   than 330,000 people are exposed
world by 2013. 9                             to the anthrax spores. Casualties
                                                     and injuries resulting from the
                                                     inhaled anthrax and subsequent
       The general definition of a WMD is            infection reach upwards of 13,000
“any weapon or device that is intended or            people. The economic costs
has the capability to cause death or                 associated with the closure and
                                                     decontamination of affected areas
serious bodily injury to a significant               may run in the billions of dollars,
number of people through the release,                and the city will likely face a
dissemination, or impact of toxic or                 recovery effort that will take
                                                     months.
poisonous chemicals or their precursors; a
disease organism; or radiation or                        Chemical Attack Scenario
radioactivity.” 10 Chemical, biological,
                                                     Members of a terrorist organization
radiological, and nuclear materials can be           acquire the nerve agent sarin and
used to produce thousands of casualties in           release it into the ventilation
a single attack. In addition to mass                 system of a large office building in
                                                     a metropolitan area. The agent
casualties, a WMD could also disrupt vital           quickly kills 95 percent of the
infrastructure and disable                           building’s 6,000 occupants. Even
communications, financial, and                       more injuries and deaths occur as
                                                     first responders arrive on the scene
transportation systems. The text boxes to            unaware of the current conditions.
the right and on the next page present               As the nerve agent escapes the
hypothetical examples of biological,                 building, almost 50,000 people
                                                     located in adjacent buildings are
chemical, radiological, and nuclear WMD              forced to shelter in place. Recovery
incidents.                                           time will likely be 3 to 4 months,
                                                     with the economic impact reaching
                                                     upwards of $300 million.
      Planning for a response to a WMD
incident is important because the actions            Source: DHS’s Progress in Federal
taken to ensure public safety and security           Incident Management Planning,
                                                     DHS OIG-10-58, February 2010.
in response to a WMD incident differ from

       9 Commission on the Prevention of WMD Proliferation and Terrorism, World at
Risk: The Report of the Commission on the Prevention of WMD Proliferation and
Terrorism, December 2, 2008.

       10 Annex 5 to National Security Presidential Directive-17/Homeland Security
Presidential Directive-4, Combating Weapons of Mass Destruction, February 26, 2008.


U.S. Department of Justice                                                                 1
Office of the Inspector General
Evaluation and Inspections Division
responding to an incident involving only conventional explosives. When
conventional explosives are involved, injuries and damage are caused by
physical force, either from the force of the blast itself or by shrapnel.
Immediately after the explosion, the
                                                   Radiological Attack Scenario
response is focused on, for example,
caring for the injured, stabilizing            Members of a terrorist organization
damaged buildings, cleaning up debris,         have manufactured and detonated a
                                               radiological dispersal device or a “dirty
and conducting an investigation to             bomb” in three regionally close,
identify the perpetrator.                      moderate to large cities. Each
                                                     explosion causes significant damage to
                                                     many of the buildings and structures
       In contrast to conventional                   in the immediate area of the blast. At
explosives, WMD incidents involve agents             each site, there are approximately 180
                                                     deaths and upwards of 20,000
that are more persistent. For example, a             detectable contaminations. Recovery
so-called “dirty bomb” can release                   efforts could take several months to
radioactive material that contaminates               years. Total economic loss could be in
                                                     the billions of dollars.
the immediate area of the blast and can
taint a larger region over time. Moreover,                 Nuclear Attack Scenario
the radiological material is invisible and
                                                     Members of a terrorist organization
remains in the ground unless it is                   have detonated a 10-kiloton
removed, presenting a danger to                      improvised nuclear device in a heavily
individuals entering the area for many               populated metropolitan area. The
years. Toxic chemicals such as nerve                 initial detonation causes total
                                                     infrastructure damage in a 3-mile
agents not only contaminate the area                 radius and various levels of radiation
where they are released, but may float               spanning out 3,000 square miles. As
                                                     casualties climb in excess of several
downwind to settle and cause casualties
                                                     hundred thousand, hundreds of
elsewhere. Biological agents may remain              thousands of survivors either shelter in
a viable threat for long periods of time,            place or are forced onto the city’s
                                                     transportation system to seek shelter
and biological WMD incidents may not
                                                     in safe areas or evacuate the city. The
even be recognized until victims’                    city is now facing hundreds of billions
symptoms appear and mass casualties                  of dollars in damage and a recovery
                                                     effort that will take years.
are evident.
                                                     Adapted from: DHS’s Progress in
       When a WMD incident occurs, first      Federal Incident Management Planning,
responders must follow local protocols for    DHS  OIG-10-58, February 2010.

notifying emergency services and
emergency support personnel. Only personnel trained in responding to a
WMD incident should be deployed to a potentially contaminated area.
Responders must initiate a risk assessment and recognize the
characteristics of chemical and biological agents, radiological materials,
and dissemination devices. In addition, first responders use specialized
detection devices and equipment, such as kits for detecting chemical
agents and meters to measure radiation.



U.S. Department of Justice                                                                2
Office of the Inspector General
Evaluation and Inspections Division
      In a WMD incident, protection of the lives of the victims as well as
the responders is a primary concern. Response teams must have the
appropriate equipment to allow them to safely enter a WMD site and
avoid the hazard of the WMD agents. For unknown or highly toxic areas,
responders must use a fully encapsulated, vapor protection suit that
provides the greatest level of skin and respiratory protection available.
As the hazard is remediated less protective measures may be allowed.

      In addition, according to the Target Capabilities List in the National
Response Framework, first responders should isolate the hazards by
establishing control zones. 11 There are three types of control zones:

       •	 Hot Zone – The area immediately surrounding a hazardous
          materials incident, which extends far enough to prevent the
          hazardous materials released from causing harm to personnel
          outside the zone. This zone is also referred to as the exclusion
          or restricted zone. Personnel entering this area must wear the
          highest level of protective equipment based on the substance
          involved.
       •	 Warm Zone – The area where personnel, equipment
          decontamination, and hot zone support takes place. It is
          referred to as the decontamination, contamination reduction, or
          limited access corridor. It includes control points for access to
          the corridor, which assists in reducing the spread of
          contamination. Personnel working in this area must also wear
          appropriate protective gear, as they will be dealing with
          contaminated people and equipment.
       •	 Cold Zone – Contains the command post and other support
          functions deemed necessary to control the incident. Personnel
          working in this area do not have to wear protective gear, but
          should have it available if needed.
        According to the Target Capabilities List, after these areas are
established, responders must continue to assess the ongoing threat for
WMD and begin rescue operations. Responders must develop a
decontamination plan for people, pets, and livestock, as well as the area
itself. Decontamination procedures vary depending on the specific hazard
because one procedure or method will not work for all hazards. The
contaminated area must remain secure until decontamination is complete.


       11The Target Capabilities List defines 37 specific capabilities that all levels of
government should possess in order to respond effectively to disasters, including a
WMD incident.


U.S. Department of Justice                                                                  3
Office of the Inspector General
Evaluation and Inspections Division
                                 BACKGROUND 



      The federal government has taken various steps to prepare to meet
the threat of weapons of mass destruction. One of those steps was the
completion of the National Response Framework, which establishes a
comprehensive approach for a unified national response to natural and
man-made disasters, including WMD incidents. National policies and
presidential directives are intended to promote an organized and
coordinated response to a WMD attack.

       In this section, we discuss the Department of Justice’s
(Department or DOJ) policies, guidance, and plans relating to emergency
or critical incident response that pertain to all such incidents. As
discussed below, the Department does not currently have any policies,
guidance, or plans that are specific to the WMD threat.

      We also describe the presidential directives and national policies
that control emergency response planning, including requirements for
coordination among federal departments.

Department Policy and Guidance Governing Emergency Response
Planning

      The Department’s policies and assignment of responsibilities for
responding to critical incidents are primarily contained in one
Department order, four memoranda from the Attorney General or Deputy
Attorney General, and a memorandum of understanding between the
Executive Office for United States Attorneys (EOUSA) and the National
Security Division (NSD). The following provides a brief description of
these materials. The duties these documents assign to each component
are described in the next section.

       DOJ Order 1900.6A, Department of Justice Crisis Management
Plan, December 13, 1988. This Order contained Department policy for
crisis management, including terrorist incidents, and assigns
responsibilities for a Crisis Management Plan’s management and
implementation. It created a Crisis Management Committee to guide the
Department’s readiness planning and to determine the operational
responsibility for the on-scene federal or Department response to a




U.S. Department of Justice                                                 4
Office of the Inspector General
Evaluation and Inspections Division
critical incident. 12 It also directed the Justice Management Division’s
(JMD) Security and Emergency Planning Staff (SEPS), under the
direction of the Crisis Management Committee, to “conduct periodic
exercises of emergency operating plans to ensure that the DOJ maintains
a high level of readiness.”

       Memorandum from the Attorney General, Attorney Critical Incident
Response Group, January 11, 1996. This memorandum established an
Attorney Critical Incident Response Group to improve the Department’s
legal response to critical incidents and established requirements for
Department attorneys and U.S. Attorney staff in headquarters and
districts in responding to a critical incident.

       Memorandum from the Attorney General, Critical Incident
Response Plan, May 23, 1996. This memorandum provided that the
Federal Bureau of Investigation’s (FBI) Strategic Information Operations
Center, the FBI’s Critical Incident Response Group, and Department
headquarters may become involved in critical incident responses,
depending on the magnitude of the event and the response required. 13
In addition, the memorandum clarified that the prosecutorial and legal
response to a critical incident would be handled by the U.S. Attorney’s
Office (USAO) in the district where an incident occurred and that the
Drug Enforcement Administration (DEA) and the U.S. Marshals Service
(USMS) would consult and coordinate with the FBI during a crisis.

       Memorandum from the Deputy Attorney General, Emergency
Support Function-13 (ESF-13), Public Safety and Security, October 16,
2008. In this memorandum, the Deputy Attorney General stated that in
line with a recommendation by the Homeland Security Council following
Hurricane Katrina, the Department was assigned the lead role in
coordinating federal law enforcement support to state and local and
federal government agencies during critical incidents. This
responsibility, designated as Emergency Support Function-13 (ESF-13)
in the National Response Framework, requires the Department to ensure
public safety and security in the event of a natural or man-made

       12  At a minimum, the Crisis Management Committee includes the Attorney
General or his or her designee; the Deputy Attorney General; the Associate Attorney
General; the Assistant Attorney General, Office of Legal Counsel; the Director, Office of
Public Affairs; and the Director of the FBI.

       13   The Strategic Information Operations Center is the FBI’s national command
center and operates on a 24-hour basis. The Critical Incident Response Group
facilitates the FBI’s rapid response to critical incidents.


U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
disaster. 14 (The requirements of ESF-13 are described below in the
section on national policy.) The Attorney General accepted the
assignment for the Department in 2006 and assigned the lead role to the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF). The 2008
memorandum formalized ATF’s assignment as the Department’s
coordinator for ESF-13 activities to “coordinate the Federal law
enforcement response to assist other Federal, State, local, tribal, and
territorial law enforcement department and agencies that have been
overwhelmed or incapacitated by an act of terrorism or natural or man-
made disaster.”

       Memorandum from the Deputy Attorney General, Interagency
Coordination Positions for Response and Emergency Management,
August 31, 2009. In this memorandum, the Deputy Attorney General
directed EOUSA, JMD, NSD, and the Office of Legal Policy each to
identify a senior-level individual to assume responsibilities for
coordinating the component’s participation in interagency policy
development and planning for man-made and natural disasters, as well
as for national and regional exercises. According to a senior Department
official from the Office of the Deputy Attorney General, four individuals in
these components had assumed these responsibilities as of January 12,
2010.

       Memorandum of Understanding Between the Executive Office for
United States Attorneys and National Security Division, April 16, 2008.
This memorandum of understanding transferred the overall
administrative, logistical, and program management functions of the
Crisis Management Coordinator program from the NSD to EOUSA and
further delineated the respective duties and responsibilities of EOUSA
and the NSD in crisis responses. 15 The NSD retained responsibility for
anti-terrorism responses, including providing guidance and training to
the USAOs on legal issues that are likely to arise in a terrorist incident,
participating in interagency meetings with the Department of Homeland
Security (DHS) and other agencies to plan the Department’s role in

       14  “Public safety and security” is defined as the ability to protect critical
infrastructure, control access to and from an incident site, manage traffic and crowd
control, and provide general law enforcement support during an incident.

       15 The Crisis Management Coordinator program was designed to improve the
planning and preparation of the USAOs to respond quickly to critical incidents. Each
Crisis Management Coordinator is responsible for ensuring the USAOs’ coordination
with law enforcement and emergency response agencies, ensuring the identification and
organization of resources for providing legal advice during a critical incident, and
improving the USAOs’ anticipation of crisis situations.


U.S. Department of Justice                                                              6
Office of the Inspector General
Evaluation and Inspections Division
response to a terrorist event, and participating in exercises that involve
responding to an act of terrorism. EOUSA assumed oversight
responsibility for the administrative, logistical, and program management
aspects of the Crisis Management Coordinator program, including
preparation, planning, and response coordination for natural disasters
and other non-terrorism crisis events.

Department Components Involved in Emergency Response

      Various Department components and offices have emergency
response roles under the DOJ Orders and Attorney General memoranda
described above. Table 1 lists these offices and components, the main
responsibilities they have been assigned, and the order or memorandum
in which the responsibility was assigned.




U.S. Department of Justice                                              7
Office of the Inspector General
Evaluation and Inspections Division
                    Table 1: Assigned Responsibilities in
                          an Emergency Situation
Office                                     Responsibilities
                                         Department Offices
ODAG           Member of the Attorney General’s Crisis Management Committee. DOJ
               Order 1900.6A.
JMD            Under the direction of the Crisis Management Committee, SEPS is to
               conduct periodic exercises of emergency operating plans to ensure the
               Department maintains a high level of readiness. DOJ Order 1900.6A.
               JMD’s Justice Command Center, in coordination with Department
               components, maintains crisis management plans. DOJ Order 1900.6A.
               Maintains a coordinator for component participation in interagency
               policy development for man-made and natural disasters, and national
               and regional exercises. August 2009 Deputy Attorney General
               Memorandum.
EOUSA          Maintains a coordinator for component participation in interagency
               policy development for man-made and natural disasters, and national
               and regional exercises. August 2009 Deputy Attorney General
               Memorandum.
NSD            Provides guidance and training to the USAOs on legal issues that likely
               to arise in a terrorist event. Provides legal advice on criminal matters
               during an emergency. April 2008 Memorandum of Understanding
               between EOUSA and the NSD.
               Participates in interagency meetings with the DHS and other agencies to
               plan the Department’s role in response to a terrorist event and
               participates in exercises that involve responding to an act of terrorism.
               April 2008 Memorandum of Understanding between EOUSA and the
               NSD.
               Maintains a coordinator for component participation in interagency
               policy development for man-made and natural disasters, and national
               and regional exercises. August 2009 Deputy Attorney General
               Memorandum.
Office of      Member of the Attorney General’s Crisis Management Committee. DOJ
Legal          Order 1900.6A.
Counsel
Office of      Maintains a coordinator for component participation in interagency
Legal Policy   policy development for man-made and natural disasters, and national
               and regional exercises. August 2009 Deputy Attorney General
               Memorandum.

                                Continued on next page




U.S. Department of Justice                                                                8
Office of the Inspector General
Evaluation and Inspections Division
                                        Components
ATF             Coordinates ESF-13 activities if ESF-13 is activated during a WMD
                incident. October 2008 Deputy Attorney General Memorandum.
DEA             Consults and coordinates with the FBI during a crisis. May 1996
                Attorney General Memorandum.
FBI             The FBI field office where the incident occurs responds to domestic
                security and terrorism threats and notifies FBI headquarters and the
                NSD when a crisis begins.* The FBI Director notifies the Deputy
                Attorney General or the Attorney General. If the response requires more
                resources than a field office can provide, FBI headquarters will activate a
                regional response or greater. May 1996 Attorney General Memorandum.
                Member of the Attorney General’s Crisis Management Committee. DOJ
                Order 1900.6A.
USAOs           Provides legal guidance and oversight in all situations involving a federal
                law enforcement response. May 1996 Attorney General Memorandum.
USMS            Consults and coordinates with the FBI during a crisis. May 1996
                Attorney General Memorandum.

* 	The Criminal Division’s Counterterrorism Section (CTS) had an emergency response role prior
   to September 2006. However, on September 28, 2006, the Department announced that CTS
   would become part of the NSD established under the USA Patriot Improvement and
   Reauthorization Act of 2005 (Pub. L. No. 109-177 (2006)).


National Policies Related to Emergency Response Planning

       Homeland Security Presidential Directive-5, Management of
Domestic Incidents, February 2003. Issued by the President, Homeland
Security Presidential Directive (HSPD)-5 provides that the DHS has the
lead role in managing the response to incidents in the United States,
including terrorist attacks, major disasters, and other emergencies. The
Directive specifies, however, that the Attorney General, in coordination
with the DHS and working through the FBI, will coordinate law
enforcement’s activities for preventing and disrupting terrorist attacks.
The Directive required that, by the beginning of fiscal year (FY) 2005,
federal departments and agencies formally implement a standardized
methodology for responding to all domestic incidents, from natural
disasters to acts of terrorism. 16 It also mandates that federal agencies
revise their emergency operations plans to adhere to a national policy for
emergency response and preparedness.

      Homeland Security Presidential Directive-8, National Preparedness,
December 2003. HSPD-8 requires all federal agencies, under the
leadership of the DHS, to support in the preparation for and response to

        This methodology was formally included in the National Incident
        16

Management System, discussed below.


U.S. Department of Justice                                                                       9
Office of the Inspector General
Evaluation and Inspections Division
a domestic emergency. The Directive also requires a national-level
exercise program to annually test federal agencies’ emergency response
preparedness. The exercises include critical incident scenarios, such as
responding to natural disasters and preventing and responding to WMD
and terrorist incidents.

      In December 2007, the President approved Annex 1 to Homeland
Security Presidential Directive-8, which formally established a standard
comprehensive approach to national planning for critical incident
response. The annex requires agencies to develop all-hazards plans, as
well as plans to respond to eight scenarios representing the gravest
dangers faced by the United States (described in the National Response
Framework below), and to participate in interagency planning and
coordination for domestic incidents.

      Executive Order 13527, Establishing Federal Capability for the
Timely Provision of Medical Countermeasures Following a Biological
Attack, December 30, 2009. To further address the biological scenario in
Annex 1 to Homeland Security Presidential Directive-8, the President
approved this Order requiring that the Secretaries of Homeland Security,
Health and Human Services, and Defense, and the Attorney General, in
coordination with the U.S. Postal Service, within 180 days of the date of
the Order, to develop a plan for supplementing local law enforcement
personnel, as necessary, with federal law enforcement to provide security
for assisting postal workers delivering medical countermeasures in the
event of a biological attack, with anthrax as the primary consideration. 17

      National Incident Management System, March 2004. The National
Incident Management System is a standardized methodology for
responding to critical incidents, including a WMD incident, which is
designed to be used at all levels of government. The President directed
the DHS, in HSPD-5, to issue a document establishing the methodology
and directed all level of government to adopt it. The National Incident
Management System methodology includes: (1) command and
management, including templates for the standard incident command
structures; (2) preparedness, including templates for planning, training,
and exercises; (3) resource management; and (4) communications and



       17  The Office of the Deputy Attorney General, ATF, EOUSA, and the NSD are
participating in the development of a federal law enforcement plan for assisting the
U.S. Postal Service in providing security for the distribution of medical
countermeasures in the event of a biological attack.


U.S. Department of Justice                                                             10
Office of the Inspector General
Evaluation and Inspections Division
information management. 18 Agencies are required to train their
operational response personnel on the National Incident Management
System methodology.

      National Response Framework, January 2008. Issued by the DHS
and approved by the President, the National Response Framework
implements the requirements in HSPD-5 and HSPD-8 for a consistent
approach to emergency response and preparedness for domestic
incidents. 19 It describes how communities, tribes, states, the federal
government, the private sector, and nongovernmental partners should
work together to respond to incidents; describes specific authorities and
best practices for managing incidents; and reinforces a consistent
methodology for managing incidents. It also states that agencies are to
conduct exercises and evaluate their performance to identify and correct
weaknesses.

       The National Response Framework directs federal agencies to
develop all-hazards response plans and plans to respond to eight
scenarios. Of the eight scenarios, four are WMD-specific and include
attacks with nuclear, radiological, biological, and chemical weapons. 20
In addition, the National Response Framework contains annexes that
address specific hazardous incidents. The Department is identified as a
cooperating agency in the following annexes: nuclear and radiological,
biological, and catastrophic incidents. 21 The Department, through the
FBI, is identified as the lead coordinator for the Terrorism Incident Law
Enforcement and Investigation Annex, which assigns the Department the
responsibility for investigating all threats or acts of terrorism.



       18www.fema.gov/emergency/nims/IncidentCommandSystem.shtm, accessed
May 12, 2010.

       19 This policy was originally approved by the President and issued in December
2004 as the National Response Plan. The policy was revised in January 2008 and
renamed the National Response Framework.

       20The other four scenarios are explosives attack, natural disaster, cyber attack,
and pandemic influenza.

       21 The lead coordinating agencies for the Nuclear/Radiological Incident Annex
are the Department of Defense; Department of Energy; DHS; Environmental Protection
Agency; National Aeronautics and Space Administration; and the Nuclear Regulatory
Commission. The lead coordinating agency for the Biological Incident Annex is the
Department of Health and Human Services. The lead coordinating agency for the
Catastrophic Incident Annex is the DHS’s Federal Emergency Management Agency.


U.S. Department of Justice                                                           11
Office of the Inspector General
Evaluation and Inspections Division
       The National Response Framework also authorizes the Attorney
General to appoint a Senior Federal Law Enforcement Official, in
appropriate circumstances such as a WMD incident, to provide
operational coordination and direct the federal law enforcement support
operations related to the incident. According to the National Response
Framework, this official does not have to come from the Department, but
will usually be an FBI Special Agent in Charge if the incident is an act of
terrorism.

       The National Response Framework also establishes 15 Emergency
Support Functions that are common to all incidents and designates
9 federal departments to be the lead coordinators of various functions. 22
The Department is the lead coordinator for ESF-13, which involves the
use of federal law enforcement resources to maintain public safety and
security if local and state resources are overwhelmed during an act of
terrorism or natural or man-made disaster. 23 ESF-13 can be activated
by a presidential declaration of an emergency or disaster, or by the
Attorney General at the request of a state governor. 24

       The National Response Framework assigns the Department
10 specific responsibilities related to ESF-13. The 10 responsibilities
include staffing management positions at headquarters and in field
offices to manage ESF-13 activities: cataloging federal resources,
training staff, planning and participating in National Level Exercises, and

       22A summary of the 15 Emergency Support Functions is presented in
Appendix II.

       23 ESF-13 activities are not the same as the activities described in the National
Response Framework’s Terrorism Incident Law Enforcement and Investigation Annex or
other criminal investigative law enforcement activities. During terrorist incidents,
including a WMD incident, ESF-13 coordinates and contributes support to the FBI’s
operational response, if requested.

       24  The Justice Assistance Act of 1984, 42 U.S.C. § 10501 (2006), et seq., and the
Robert T. Stafford Disaster Relief and Emergency Assistance Act, Pub. L. No. 93-288, as
amended, 42 U.S.C. §§ 5121-5206, and implementing regulations in 44 C.F.R.
§§ 206.31-206.48. Under Emergency Federal Law Enforcement Assistance provisions in
the Justice Assistance Act, the Attorney General may provide law enforcement
assistance in response to a governor’s written request when assistance is necessary to
provide an adequate response to a law enforcement emergency. The Stafford Act
provides the statutory framework for a presidential declaration of an emergency or a
declaration of a major disaster. Such declarations allow a wide range of federal
resources to be made available to assist in dealing with the emergency or major
disaster. Federal resources under this Act supplement state and local resources for
disaster relief and recovery.


U.S. Department of Justice                                                           12
Office of the Inspector General
Evaluation and Inspections Division
providing coordination among the Department’s law enforcement
partners in the field (see Appendix III for the Department’s ESF-13
responsibilities). On October 16, 2008, an Office of the Deputy Attorney
General memorandum formally designated ATF as the Department’s lead
for planning and coordinating the federal law enforcement response if
ESF-13 is activated. While ATF coordinates all ESF-13 activities,
personnel to perform ESF-13 activities may be provided by any of
13 federal agencies. 25




       25  There are 13 agencies involved in ESF-13 activities. The Department of
Justice is lead coordinator, and the other 12 agencies are the Department of
Agriculture; Department of Commerce; Department of Defense; Department of Energy;
Department of Homeland Security; Department of the Interior; Department of the
Treasury; Department of Veterans Affairs; Environmental Protection Agency; National
Aeronautics and Space Administration; Social Security Administration; and U.S. Postal
Service. We refer to these 12 support agencies in the text as the ESF-13 agencies.


U.S. Department of Justice                                                         13
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW



Purpose

      Our review examined the Department’s and its components’
preparedness for responding to a WMD incident. Specifically, we
examined whether:

   •	 the Department and components have adequate policies and 

      operational plans for their WMD preparedness activities; 

   •	 the Department and components have a person or office to manage
      WMD operations, activities, or responsibilities;
   •	 the Department and its components are training their personnel to
      respond to a WMD incident;
   •	 the Department and its components are conducting WMD response
      exercises; and
   •	 corrective actions are being taken to resolve deficiencies identified
      during WMD response exercises.

       In addition, we examined the preparations of components’ field
offices in the National Capital Region for responding to a WMD
incident. 26

Scope and Methodology

      We examined the preparedness of the Department and its
components to respond to a WMD incident. Emergency preparedness
functions are generally considered to have two main elements:
operational response and continuity planning. Operational response
consists of an on-scene response to the incident and investigation of the
incident. Continuity planning includes continuity of operations planning
(COOP) and continuity of government (COG) planning. 27

      This report examines the preparations of the Department to carry
out an operational response but does not examine preparedness to
prevent a WMD incident, conduct a criminal or other investigation of a

       26 The National Capital Region is composed of the District of Columbia and
nearby jurisdictions in Virginia and Maryland.

       27 COOP details how an agency will continue to perform its essential functions
during circumstances that disrupt normal operations and COG refers to the continued
functioning of constitutional government under all circumstances.


U.S. Department of Justice                                                          14
Office of the Inspector General
Evaluation and Inspections Division
WMD incident, or COOP and COG planning. Also, we did not review
ESF-13 support for responding to natural disasters, such as hurricanes
and earthquakes.

       In conducting this review, we examined the roles of the Office of
the Deputy Attorney General, JMD, ATF, the Criminal Division, DEA,
EOUSA, FBI, NSD, Office of Legal Counsel, Office of Legal Policy, USAOs
in the National Capital Region, and the USMS. 28

     Our fieldwork, which was conducted from July 2009 through
December 2009, included interviews, data collection and analyses, and
document reviews. The review covered activities from FY 2005 through
FY 2009. A detailed description of the methodology of our review is in
Appendix I.




       28   Although we reviewed the Federal Bureau of Prisons because of its law
enforcement capabilities, we determined during the review that the Department has not
designated a role for the Federal Bureau of Prisons in providing an operational response
to a critical incident and so did not include it in this report.


U.S. Department of Justice                                                           15
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW



       Our review found that the FBI has taken appropriate
       steps to prepare to respond to a WMD incident because it
       has implemented a headquarters-led program that
       established WMD response plans, provided WMD training
       to its response staff, and performed WMD exercises.
       However, the Department and its other components have
       not implemented adequate WMD response plans. The
       Department’s      emergency     response   program     is
       fragmented, and the components’ WMD incident
       response planning is inconsistent and not well
       coordinated.      There is no Department plan that
       specifically addresses response to a WMD incident as
       opposed to other crises or critical incidents. Further,
       the FBI has not formally identified roles and
       responsibilities for the other Department components in
       its plans. Moreover, the Department is not prepared to
       carry out its responsibilities under ESF-13 for
       coordinating the law enforcement activities of federal
       departments to ensure public safety and security if state
       and local law enforcement is overwhelmed by a WMD
       incident. In the National Capital Region, planning for
       incidents that may occur during special events is
       coordinated, but planning for incidents at other times
       needs improvement.


The FBI has taken appropriate steps to prepare to respond to a WMD
incident.

      As described in the following sections, we found that the FBI has
implemented an appropriate WMD response program, including
designating a group within the FBI to manage WMD operations activities
and responsibilities, establishing operations plans for responding to a
WMD incident, providing appropriate FBI staff with training to prepare
for a WMD incident, participating in WMD response exercises, and
considering corrective actions taken based on exercises.

The FBI WMD Directorate manages the FBI’s WMD response efforts.

      Management of FBI resources, and the FBI’s actual operational
response activities, at the scene of a WMD incident are coordinated

U.S. Department of Justice                                            16
Office of the Inspector General
Evaluation and Inspections Division
through the FBI’s Weapons of Mass Destruction Directorate (WMD
Directorate). The WMD Directorate’s mission includes managing WMD
investigations, preventing the use of WMDs, assessing and responding to
incidents involving the use or threatened use of WMDs, and staging
various exercises to test the FBI’s ability to respond to a WMD incident.
The WMD Directorate includes the WMD Operations Unit, which provides
strategic management and oversight of the FBI WMD program. The
WMD Directorate is supported by the following additional FBI units:

       •	 The Critical Incident Response Group (CIRG) integrates tactical
          and investigative resources to provide rapid support to a field
          office response to a critical incident and to facilitate
          management of the incident.

            o	 CIRG’s Strategic Information and Operations Center serves
               as the FBI’s 24-hour clearinghouse for information and the
               center for crisis management, including the collection and
               dissemination of information to support responding to a
               critical incident.

            o	 CIRG’s Operations Support Branch prepares for, responds
               to, and assists in the resolution of critical incidents.

       •	 The Laboratory Division provides, among other things: (1) WMD
          operational and technical-level training to FBI field personnel;
          (2) research and development in WMD detection, identification,
          and response; (3) forensic, scientific, and technical response to
          WMD incidents; and (4) WMD technical information and advice
          to the FBI and other federal, state, and local agencies.

      In addition, at the field office level the FBI primarily relies on a
designated Special Agent in each field office, referred to as a WMD
Coordinator, to implement the FBI’s WMD-related activities, including
responding to a WMD incident. The responsibilities of WMD
Coordinators are to identify WMD threats and vulnerabilities, provide
WMD subject matter expertise to field offices, and coordinate with
headquarters during the FBI’s response to a WMD incident. 29

       29  The OIG recently conducted an audit of the FBI’s WMD Coordinator Program.
The audit report found many WMD Coordinators could not identify the top, specific
WMD threats and vulnerabilities that faced their particular field division. See
U.S. Department of Justice Office of the Inspector General, The Federal Bureau of
Investigation’s Weapons of Mass Destruction Coordinator Program, Audit Report 09-36
(September 2009).


U.S. Department of Justice                                                       17
Office of the Inspector General
Evaluation and Inspections Division
The FBI maintains operational plans, handbooks, and other resources to
direct and assist FBI personnel in responding to WMD incidents.

       The FBI maintains a variety of operational plans to respond to a
WMD incident at the headquarters, regional, and local levels. For
example, the FBI has a Terrorism Incident Response Protocol that
establishes step-by-step procedures for headquarters units that assess
and respond to acts of terrorism, including WMD incidents. The FBI also
has Crisis Response Plans that provide detailed, tactical, and
administrative assignments for the FBI’s response to critical incidents at
the local and regional level. 30 In addition, the FBI has Incident
Contingency Plans that are further detailed, based on a standard
template, and that can be modified to address potential WMD threats in
each field office.

       The FBI also maintains handbooks and other resources to aid FBI
Special Agents in responding to various types of WMD incidents. For
example, the Radiological/Nuclear Law Enforcement and Public Health
Investigative Handbook provides responders with indicators to determine
if radiological or nuclear materials are present. The FBI also has created
a Critical Incident Handbook, which is designed to assist FBI Special
Agents in Charge in quickly organizing and executing an effective
response to a critical incident, including a WMD incident. The handbook
contains information to guide Special Agents in Charge through all
phases of a critical incident and provides a checklist for responders to
follow. Other FBI resources provided to FBI response personnel include
pocket guides, flipbooks, and cards. These resources present chemical,
biological, and radiological indicators, WMD response procedures, WMD
statutes, and guidelines to respond to WMD threats and incidents.

The FBI regularly provides training specifically on responding to a WMD
incident to its response staff.

      The FBI provides a variety of regular training specific to WMD
incidents, including:

       •	 All new Special Agents receive basic WMD training during their
          initial FBI Academy training;



       30 FBI officials said every FBI field office should have a Crisis Response Plan,
which is supposed to include a WMD annex describing the FBI’s operational response to
a WMD incident.


U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
       •	 WMD Coordinators and Intelligence Analysts receive training in
          specific WMD areas of emphasis, including: (1) biological,
          (2) chemical, including chemical explosives, (3) radiological,
          (4) nuclear, (5) agroterrorism, (6) explosives, and (7) hazardous
          materials; and

       •	 FBI personnel, as well as local, state, and federal first
          responders participate in the Comprehensive Integrated
          Training and Exercise course, which is designed to enhance
          first response capability to a WMD incident. The objective of
          the course is to strengthen the ability of the FBI and its partner
          agencies to detect and prevent WMD threats and respond to
          WMD incidents. The course concludes with a WMD scenario
          tabletop exercise.

In addition, various divisions within the FBI that could have a role in
responding to a WMD incident are trained within their areas of expertise.
For example:

       •	 A WMD Master’s Degree and Certificate Program, which is
          offered to Special Agents and Intelligence Analysts but is mainly
          directed at WMD Coordinators, includes courses with a specific
          emphasis on the material most relevant to the FBI’s role in
          WMD incidents, and

       •	 A program for Special Agents to develop as WMD career
          professionals with expertise in a specific type of WMD that
          offers WMD training through partner agencies and the National
          Laboratories.

       Further, a Supervisory Special Agent with the FBI’s Operational
Technology Division told us that the Division trains staff all over the
country to operate specialized equipment to ensure communications
within the FBI during any critical incident. 31 Also, the Laboratory
Division’s Assistant Director said the Laboratory Division trains evidence
response personnel located in each FBI field office, as well as specialized
response teams that would be involved in responding to a WMD incident,
to safely enter an incident area to collect evidence and support a


       31  Although not part of the WMD Directorate, the FBI’s Operational Technology
Division supports the FBI’s investigative and intelligence-gathering efforts with a wide
range of technological equipment and communications tools, such as mobile command
centers and satellite communications.


U.S. Department of Justice                                                            19
Office of the Inspector General
Evaluation and Inspections Division
response. 32 In addition, the Laboratory Division provides hazardous
materials operations, incident command and WMD crime scene
operations training to FBI Special Agents in Charge or other FBI
personnel who may lead an incident command.

       The FBI also trains a designated cadre of FBI Special Agents in
Charge to serve as Senior Federal Law Enforcement Officials who provide
operational coordination and direct the federal law enforcement support
operations related to an incident. All FBI personnel identified as
potential Senior Federal Law Enforcement Officials are also trained on
the National Response Framework, National Incident Management
System, and Incident Command System through resources provided by
the Federal Emergency Management Agency’s Emergency Management
Institute.33 He said this training is provided so everyone “is on the same
page and using the same language.”

The FBI regularly conducts and participates in WMD response exercises.

       Since 2005, there have been two National Level Exercises involving
a WMD incident response, one in 2005 and another in 2007. The FBI
participated in both. 34 In addition, the FBI both sponsors WMD incident
exercises and participates extensively in WMD incident exercises
sponsored by other federal agencies and state or local law enforcement.

       FBI exercise data showed that from FY 2005 to FY 2009, FBI field
offices regularly participated in WMD-related exercises. Each year, the
FBI participated in 168 to 215 WMD exercises, for a total of at least



       32  An example of a Laboratory Division specialized team is the Hazardous
Evidence Analysis Team, which responds to contaminated areas to conduct traditional
forensics, such as looking for fingerprints and hair samples.

       33  The Incident Command System is used to facilitate a common response
structure for activities in command, operations, planning, logistics, and finance and
administration.

       34  TOPOFF 3 and TOPOFF 4, now known as a National Level Exercises, were
congressionally mandated counterterrorism exercises for senior law enforcement and
first responder officials. TOPOFF 3 took place from April 4-8, 2005, and simulated
incidents of biological and chemical agent attacks. TOPOFF 4 took place from
October 15-20, 2007, and was designed to prevent or respond to a simulated terrorist
attack using WMDs. A National Level Exercise in 2009 focused on prevention of a WMD
attack, but not on responding in the event the attack was carried out.



U.S. Department of Justice                                                              20
Office of the Inspector General
Evaluation and Inspections Division
936 WMD exercises (Table 2). 35 These exercises provided training to test
responses to a chemical, biological, radiological, or nuclear device, as
well as the use of improvised explosive devices. Of the 936 exercises,
496 (53 percent) were field training exercises and the remaining 440
(47 percent) were tabletop or command post exercises. 36

            Table 2: FBI Field Offices’ Participation in Exercises
                            Year                  Number of Exercises
                            2005                         186
                            2006                         188
                            2007                         179
                            2008                         168
                            2009                         215
                            Total                        936
                Source: FBI WMD exercise data.

       The FBI sponsored or co-sponsored some of the exercises, although
most were sponsored by state and local law enforcement agencies.
Table 3 shows the entities that sponsored the exercises in which the FBI
participated.

     Table 3: Sponsoring Agencies and Number of WMD Exercises 

                            Conducted 

            Sponsoring Entity                                     Exercises
            Amtrak                                                    1
            Coast Guard                                              28
            Customs and Border Protection                             2
            Department of Agriculture                                 6
            Department of Defense                                    61
            Department of Energy                                     16
            DHS                                                       5
            Environmental Protection Agency                          10
            FBI                                                      46
                                Continued on next page


       35  The documentation provided by the FBI regarding its field offices’
participation in WMD response exercises included 45 of the 56 field offices.

       36 A tabletop exercise is an analysis of an emergency situation in an informal
environment designed to elicit discussion as participants examine and resolve problems
based on existing plans and identify where those plans need to be improved. A
command post exercise simulates a response to an incident where the on-scene
coordinator, responders, and technical representatives make response decisions, deploy
manpower and equipment, maintain liaison with headquarters, and handle
communications.


U.S. Department of Justice                                                         21
Office of the Inspector General
Evaluation and Inspections Division
         Sponsoring Entity                             Exercises
         FBI and Department of Energy                      1
         Federal (not specified)                          26
         Federal Emergency Management Agency               4
         Food and Drug Administration                      1
         International law enforcement agency              8
         Local law enforcement agency                    653
         Multi-agency (not specified)                      5
         Nuclear Regulatory Commission                    13
         Postal Service                                   50
         Total                                           936
       Source: FBI WMD exercise data.

       Although the FBI was able to provide data regarding 45 of its 56
field offices, the information reported was not standardized. As reflected
in the chart above, some field offices named the sponsoring entity, and
others categorized the entity broadly (for example, “federal”). In addition,
while most data described the type of WMD incident being tested, 50 of
the 936 exercises did not. Thus, while the FBI is tracking its
components’ participation in exercises, this information could be more
complete to better capture who is sponsoring the exercises, the entities
participating, and the type of WMD response tested. The FBI also does
not have one place where all the WMD exercise participation of its many
separate units is documented. Nonetheless, we believe the available data
clearly shows the FBI is conducting and participating in many exercises
to prepare to respond to a WMD or other critical incident.

After action reports are not consistently prepared.

       We found that the preparation of after action reports to document
deficiencies identified during WMD response exercises is inconsistent.
Conducting exercises is only the first step in ensuring an effective
response capability – deficiencies revealed during exercises must be
identified and addressed. The National Response Framework states that
agencies must establish a corrective action program to improve their
emergency operations and that, upon concluding an exercise,
performance should be evaluated, weaknesses identified, and corrective
action plans instituted.

      The OIG requested FBI after action reports for any WMD exercise
in which the FBI had participated. In response, the FBI provided after
action reports for 25 exercises that took place between FY 2005 and




U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
FY 2009. 37 Thirteen were written by the FBI, and 12 were written by
other agencies. According to FBI data, however, of the 936 exercises in
which the FBI participated, 473 had written after action reports and 335
exercises did not have written after action reports. The FBI’s data did
not show whether after action reports were written for the remaining 128
exercises. 38

       FBI officials gave conflicting responses regarding the requirement
to write after action reports. Of the nine FBI officials we interviewed, four
stated that written after action reports were required, and five officials
said written after action reports were not required. Those officials who
said written after actions reports were not required also said that after
action reports were usually written by the federal, state, or local agency
that hosted the exercise.

The Department is not fully prepared to provide a coordinated
response to a WMD incident.

       Although the FBI appears prepared to provide the initial response
to a WMD incident, the Department as a whole is not fully prepared to
provide a coordinated response. We found that no entity or individual
has been assigned responsibility for central oversight of WMD response
activities throughout the Department. In addition, the existing
Department-level response policies and plans are not in compliance with
national policy and are outdated. Further, the components’ preparations
for responding to a WMD incident, other than the FBI’s, are inconsistent
and not well coordinated. Moreover, appropriate component staff does
not appear well trained in the unique requirements associated with
responding to a WMD incident. The following sections provide greater
detail on these deficiencies.

No entity provides central oversight of the Department’s WMD-related
activities.

      We found that the Department has not assigned one entity or
individual with the responsibility for the central oversight or
management of WMD incident response policy development, planning

       37  Not all FBI field offices provided after action data. The FBI does not maintain
its exercise data in a central location. Rather, exercise and after action data from the
FBI was provided by field offices or various entities within FBI headquarters.

       38   The Operational Technology Division provided data for 22 exercises in which
it participated and provided after action reports for 6 of the 22 exercises.


U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
and training for responding to a WMD incident, or conducting WMD
incident response exercises. The JMD Deputy Assistant Attorney
General for Policy Management and Planning stated that “it is not clear”
who has responsibility for managing WMD response activities in the
Department. He noted that the uncertainty could create a
“disaggregated” response to a WMD incident. Through our interviews of
36 senior officials involved in emergency response planning in the
Department and the components’ headquarters, it was clear that no
person or entity is managing the overall Department’s response
activities. 39

The management of the Department’s response program is uncoordinated
and fragmented.

       Although no one entity handles management of the Department’s
operational response program, including a response to a WMD incident,
some response functions are being handled by a Special Assistant to the
Deputy Attorney General as well as senior staff at the NSD, EOUSA, and
the FBI. These individuals also represent the Department in interagency
policy and planning meetings for scenarios and exercises. The Special
Assistant to the Deputy Attorney General stated that his principal role is
to attend interagency meetings to ensure the Department is appropriately
represented and responds to interagency requests. NSD and EOUSA
officials stated they were primarily concerned with addressing legal
questions and authorities that arise during a response. FBI officials said
they were primarily concerned with ensuring that the FBI could meet its
responsibilities at headquarters and at the site of an incident.

       An EOUSA Attorney Advisor who was detailed to the Office of the
Deputy Attorney General from 2002 to 2006 stated that he had been the
central coordinator of the Department’s response planning. He originally
worked on national security policy, but after the terrorist attacks on
September 11, 2001, was assigned to coordinate Department notices,
meetings, and after action reports for response preparedness. He said he
had been the “Senior Counsel for National Security Affairs” and the “de
facto executive secretary” for correspondence about national security
matters, including response preparedness. He said he had coordinated
with the components and had met regularly with the Deputy Attorney
General to provide updates on emergency preparedness. After the end of
his detail, however, the position of Senior Counsel for National Security

       39 JMD’s Security and Emergency Planning Staff is responsible for managing
the Department’s activities for continuity of operations planning, but not for managing
the Department’s incident response planning program.


U.S. Department of Justice                                                           24
Office of the Inspector General
Evaluation and Inspections Division
Affairs was discontinued, and the responsibilities for emergency
management activities were assigned to various personnel in the Office of
the Deputy Attorney General and NSD.

       Similarly, the NSD’s National Crisis Management Coordinator told
us he was detailed to the NSD to get the USAOs “back on track” after the
first OIG review of USAO Critical Incident Response Plans (CIRP) in 2003,
but he said he spent a considerable amount of time on other duties,
including a criminal investigation. 40 As of December 2009, the NSD
hired a Director of Preparedness and Response to work full time on
emergency management for the NSD.

       These individuals also told us that they believed the Department’s
operational response program lacks leadership and oversight. The
EOUSA Attorney Advisor said the Department’s current state of response
preparedness had no overarching structure to make it work. Similarly,
the NSD National Crisis Management Coordinator stated that the
Department’s response program lacked general leadership,
centralization, and coordination. He added that nobody is looking at all
of the components regarding response operations, particularly for
responding to a WMD incident. He said that the Department “needs to
get a better handle on this,” but “if you’re not at the Deputy [Attorney
General] level no one is going to listen to you. You need clout.” EOUSA’s
Counsel for Emergency Management and Crisis Response agreed, saying
these issues need to be addressed at a Department level and the Office of
the Deputy Attorney General or an Associate Deputy Attorney General
needs to have the emergency planning portfolio.

      In fact, the need for coordinated emergency management at the
Department level has been previously identified by the Department. In
January 2006, the Assistant Attorney General for Administration
proposed an updated DOJ Order to address the need for better
coordinated emergency response management at the Department level
through a new Crisis Management Plan. The proposed Order assigned
responsibilities for emergency response to a Crisis Management
Committee that would have coordinated with the components to conduct


       40 The OIG conducted two reviews of USAO plans to respond to critical
incidents. The first report, issued in 2003, was entitled Review of the Critical Incident
Response Plans of the United States Attorneys’ Offices, Evaluations and Inspections
Report I-2004-001 (December 2003). A follow-up report was issued in 2007, entitled
Review of the Critical Incident Response Plans of the United States Attorneys’ Offices,
Evaluations and Inspections Report I-2007-001 (January 2007).


U.S. Department of Justice                                                              25
Office of the Inspector General
Evaluation and Inspections Division
periodic exercises of emergency operating plans to ensure that the
Department maintains a high level of readiness.

       A February 23, 2006, memorandum from staff of the
Counterterrorism Section of the Criminal Division critiqued the proposed
Crisis Management Plan. The memorandum suggested adding senior
representatives from the Criminal Division, the NSD (when it was
established), and EOUSA to the Crisis Management Committee. The
memorandum concluded that the preparedness elements discussed in
the proposed Order should not be addressed piecemeal with separate
components. The memorandum stated that the

       Department is long overdue to design and implement an internal
       mechanism or structure to comprehensively and effectively address
       preparedness issues . . . . These issues demand a more organized,
       deliberate, and thoughtful approach, with more coordination both within
       the Department and with other agencies.

However, the proposed Order has not been made final. 41

       During our review, the Department began to take action in this
area. A Deputy Attorney General memorandum dated August 31, 2009,
directed the NSD, Office of Legal Policy, EOUSA, and JMD to each
designate a senior-level position to coordinate interagency response and
emergency management activities associated with interagency policy
development and planning for man-made and natural disasters, national
and regional exercises, and COOP or COG matters. 42 However, we
believe that the designation of these individuals does not meet the need
for a Department-level manager with the authority to direct emergency
response efforts. Similar to the shortcomings the Criminal Division
noted in the February 2006 memorandum described above, this latest
approach risks perpetuating a fragmented program because these
individuals report to their offices’ senior management and will not be
directing or managing the overall Department’s preparation to respond to
a WMD incident.


       41As of May 2010, the Department components had commented on the
proposed Order, and the Order was awaiting review by the JMD Office of General
Counsel.

       42 These representatives have formed the Crisis Response Working Group,
which, in addition to the components identified in the memorandum, includes
representatives from the Office of the Deputy Attorney General, Office of Legal Counsel,
and Criminal Division.


U.S. Department of Justice                                                            26
Office of the Inspector General
Evaluation and Inspections Division
The Department has not updated its policies to reflect recent national
policies.

       The existing Department-level response policies and plans are
outdated and not in compliance with national policy. Since 1996, the
federal government has taken various steps in response to the WMD
threat, including issuing new national policies such as Homeland
Security Presidential Directives-5 and 8. The National Response
Framework and the National Incident Management System were
established to attempt to promote an organized, coordinated response to
critical incidents, including a WMD incident. In addition, the DHS was
created in 2003, and the FBI was given new counterterrorism
responsibilities.

      However, the Department’s polices and 1996 Critical Incident
Response Plan have not been revised to reflect these changes. For
example, they do not incorporate the principles and requirements of the
National Response Framework or the National Incident Management
System. 43 Also, the Department’s Critical Incident Response Plan, which
has not been updated since first approved by the Attorney General in
May 1996, does not address the National Planning Scenarios. 44 To
ensure the Department is prepared to respond to a WMD incident, we
recommend that the Department’s Critical Incident Response Plan be
updated to include WMD scenarios.

Department operational response policies and plans have not been fully
implemented.

       DOJ Order 1900.6A, issued in December 1988, established a
Crisis Management Committee to determine the Department’s
responsibility for the on-scene federal or Department response. However,
we found that this committee does not exist.



       43  Homeland Security Presidential Directives-5 and 8 require federal agencies to
adopt the National Response Framework. Officials in the Office of the Deputy Attorney
General and the Office of Legal Counsel confirmed that the National Response
Framework is considered binding on the Department and its requirements should be
the basis for the Department’s policy.

       44  There are eight National Planning Scenarios. Four are WMD-specific and
include attacks with nuclear, radiological, biological, and chemical weapons. The other
four scenarios are explosives attack, natural disaster, cyber attack, and pandemic
influenza.


U.S. Department of Justice                                                           27
Office of the Inspector General
Evaluation and Inspections Division
      Further, the May 1996 Critical Incident Response Plan advised the
members of the Attorney Critical Incident Response Group to participate
in law enforcement crisis scenario training that occurs throughout
Department components, such as ATF, the DEA, and the USMS.
However, we found that the Attorney Critical Incident Response Group
also does not exist and that the expected coordination does not occur
among the components.

      Overall, we found no Department-sponsored training or
coordination of exercises to test preparedness for responding to a WMD
or other incident.

No law enforcement components other than the FBI have specific WMD
operational response plans, although EOUSA and NSD have developed
plans or guides for a legal response to a WMD incident.

      We found ATF, the DEA, and the USMS each have groups or
individuals to manage all-hazards responses, but no Department
component, other than the FBI, assigns an entity specifically to prepare
for WMD incidents. 45 Further, none of the components maintains plans,
handbooks, and other resources specifically for responding to WMD
incidents.

      ATF’s Chief of the Office of Field Operations said that ATF’s plan in
the event of a WMD incident is to not respond, but rather to provide
support to the FBI. DEA and USMS officials stated that in the event of a
WMD incident they would develop plans to support an FBI response if
the FBI asked for support, after the components’ headquarters approved
the use of resources.

      We found that EOUSA, the USAOs, and the NSD have developed
plans or guides for a legal response to a WMD incident. The USAOs’ role
during a WMD incident is to provide legal guidance and oversight to the
on-scene law enforcement response. To accomplish this, USAOs would
rely on guidance from EOUSA and the NSD. EOUSA developed a
template for all USAOs to use in creating their district-specific Critical
Incident Response Plans, which describe the USAOs’ role in the



       45 According to the USMS, it created a Hazardous Response Unit after the
September 11, 2001, terrorist attacks to handle WMD incidents and training, but the
unit was disbanded prior to 2006.



U.S. Department of Justice                                                            28
Office of the Inspector General
Evaluation and Inspections Division
immediate aftermath of a WMD incident. 46 In addition, the NSD
maintains operational guides to respond to a WMD incident. For
example, the NSD maintains a guide for a legal response to an anthrax
attack at a special event and for responding to an improvised nuclear
device.

      However, we found no efforts among the components to coordinate
responding to a WMD incident. The FBI is the only component with
plans, handbooks, and other resources for responding to a WMD
incident, but officials from the other components said they have not seen
the FBI’s response materials. The Assistant Directors of the FBI’s WMD
Directorate and Critical Incident Response Group said the FBI would not
object to letting other Department components review the plans, but
none of the components have asked to do so.

No components other than the FBI provide training on responding to a
WMD incident.

       We found that Department components provide general training on
responding to critical incidents, including training on the general
principles of the National Response Framework, National Incident
Management System, and the Incident Command System. However,
except for the FBI, the components provide little or no training
specifically on how to respond to a WMD incident.

      The training programs at ATF, the DEA, EOUSA (and the USAOs),
and the USMS are designed for critical incidents resulting from all
hazards. We found that only two of the components’ training programs
included instruction, albeit minimal, on WMD response. The USMS
requires all newly hired Deputy U.S. Marshals to complete a chemical,
biological, radiological, and nuclear awareness course that instructs
them on how to identify a hazardous agent release, activate emergency
response operations, perform basic decontamination procedures, and use
proper personal protective equipment in accordance with regulations.


       46  USAO Critical Incident Response Plans are designed to be all-hazards
response plans. EOUSA’s original template for responding to critical incidents was
revised, in part, to ensure the USAOs’ plans comply with the National Response
Framework and National Incident Management System. In addition, EOUSA maintains
an online reference, USABook, that provides guidance regarding statutes that could
apply to chemical, biological, radiological, and nuclear incidents. Also, in 2009,
EOUSA’s Office of Legal Education published Crisis Response and Related Litigation,
which describes the USAOs’ role in emergency management and crisis response,
including USAOs’ response to acts of terrorism.


U.S. Department of Justice                                                      29
Office of the Inspector General
Evaluation and Inspections Division
This training is given once to new Deputy U.S. Marshals, and no
subsequent training in WMD response is provided.

       EOUSA hosted a Regional Security Specialist and Crisis
Management Coordinator Conference in November 2009. In attendance
at the conference were USAO Crisis Management Coordinators. 47 At the
conference, which we also attended, the coordinators received an
overview of the National Response Framework. In addition, coordinators
divided into working groups to discuss how they would respond to
specific critical incidents, including an unexpected crisis, which may
include a WMD incident. Officials from the following groups gave
presentations on their components’ roles and resources for responding to
a critical incident:

       •    the Department, 48
       •    state and local law enforcement agencies,
       •    ATF in ESF-13,
       •    the FBI’s Critical Incident Response Group,
       •    the FBI’s WMD Directorate, and
       •    the NSD’s Counterterrorism Section.

      We found that, except for these presentations to attendees of this
particular conference (who were all USAO staff), the components did not
coordinate with each other on the training they provide to their
personnel. Each component provides training only on its own roles and
responsibilities, and does not include in the training any information on
the roles and responsibilities of other components that may be
responding to the same incident.

      The need for coordination was raised during the EOUSA Crisis
Management Coordinator training described above. At the conference, a
Special Assistant to the Deputy Attorney General said there needed to be
more discussion and coordination about how the Department would

       47   Each USAO is required to designate a Crisis Management Coordinator. The
Crisis Management Coordinator is to be a senior Assistant U.S. Attorney and is
responsible for ensuring the USAO’s coordination with law enforcement and emergency
response agencies, ensuring the identification and organization of resources for
providing legal advice during a critical incident, and improving the USAO’s anticipation
of crisis situations.

       48  The Department portion of the training focused on the role of the Department
in helping create the national policy included in the National Response Framework.
There was no discussion of Department planning or identifying Department or
component roles and responsibilities.


U.S. Department of Justice                                                            30
Office of the Inspector General
Evaluation and Inspections Division
respond to WMD incidents, and he encouraged USAO Crisis Management
Coordinators to “get to know your Department personnel” because “the
last thing you want is to have an incident and meet the responders for
the first time.” In addition, EOUSA’s Counsel for Emergency
Management and Crisis Response, a principal coordinator of the
conference, noted that other Department components that would have a
role in responding to an incident were not present at the training. He
encouraged all USAO Crisis Management Coordinators to bring
Department response personnel “to the table” to coordinate in their
respective districts.

No component other than the FBI regularly conducts or participates in
WMD response exercises.

       As described previously, there have been two National Level
Exercises involving a WMD incident response, one in 2005 and another
in 2007. The FBI and ATF participated in both exercises, the USMS
participated in the 2005 exercise, and two USAOs participated in the
2007 exercise. The DEA was not involved in either exercise.

       At the regional, state, and local levels, officials in ATF and the
USMS told us their personnel rarely participate in WMD exercises. FBI
data confirmed that ATF, the USMS, and the USAOs, participated in only
22 of the 936 exercises. 49 DEA officials stated they have not been
involved in any WMD exercises.

The Department is not prepared to fulfill its role, assigned to it
under the National Response Framework’s ESF-13, to ensure public
safety and security in the event of a WMD incident.

      As discussed above, the National Response Framework established
the Department as the lead agency for ESF-13 with the responsibility to
coordinate the use of federal law enforcement resources to maintain
public safety and security if local and state resources are overwhelmed



       49  The number of Department components who participated in the WMD
exercises is likely understated because 11 FBI field offices did not respond to our
request for information on exercises. Some other field offices omitted information such
as the participation of other Department components in exercise. In addition, FBI data
for the 46 reporting field offices noted that no Department components participated in
591 of the 936 exercises, and it was unknown whether any component other than the
FBI participated in 323 of the exercises.



U.S. Department of Justice                                                           31
Office of the Inspector General
Evaluation and Inspections Division
during an incident. 50 The Department delegated the responsibility for
implementing its ESF-13 activities to ATF.

      However, we found that the Department is not prepared to
coordinate federal law enforcement response activities if it is called upon
to ensure public safety and security in accordance with ESF-13 in the
event of a WMD incident. 51 ESF-13 staff said that, in the event of a
WMD incident “we are totally unprepared.” They added that, “right now,
being totally effective would never happen. Everybody would be winging
it.”

       In January 2008, ATF proposed a Concept of Operations Plan to
provide a structure for the Department to implement its ESF-13
responsibilities. Yet, as of March 2010, that Concept of Operations Plan
was still in draft and had not been approved by the Department. 52 In
addition, several elements within the draft Concept of Operations Plan
that are essential to the Department’s ability to fulfill its responsibilities
for coordinating the federal law enforcement activities in an ESF-13
activation remained incomplete. As discussed below, the incomplete
elements include staffing national and regional coordinator positions;
training staff in ESF-13 operations; cataloging law enforcement resources
available in the event of an ESF-13 activation; participating in National
Level Exercises to test preparedness; and deputizing ESF-13 law
enforcement personnel.

      Staffing national and regional coordinator positions. The
Department and ATF have not made all the necessary personnel
assignments to manage ESF-13 activities. The draft Concept of


       50 The National Response Framework outlines 10 specific responsibilities for the
Department to coordinate. See Appendix III for the Department’s ESF-13
responsibilities.

       51   These ESF-13 activities, include: (1) providing basic law enforcement
assistance such as conducting routine patrols and making arrests; (2) issuing
identification badges to emergency responders and other personnel needing access to a
controlled area and verifying emergency responder credentials; (3) providing security
forces to control access to the incident site and critical facilities; (4) providing officers
for traffic and crowd control; and (5) providing for protection of emergency responders
and other workers operating in a high threat environment.

       52  Although the Concept of Operations Plan has not been approved by the
Department, according to ATF it has been vetted and approved through the 13 agencies
involved in ESF-13 activities on multiple occasions. ATF stated that future iterations of
the Concept of Operations Plan would not contain the term “draft.”


U.S. Department of Justice                                                                 32
Office of the Inspector General
Evaluation and Inspections Division
Operations Plan proposed a national-level management structure,
housed at ATF headquarters, consisting of an ESF-13 National
Coordinator, who has been assigned, and a Deputy National Coordinator,
who has not been assigned, selected by ATF and approved by the
Department. The ESF-13 National Coordinator is to manage all routine
ESF-13 planning activities.

        Until April 2010, ATF had only four administrative staff working on
ESF-13 activities as a collateral duty. As of April 2010, ATF increased its
authorized ESF-13 staffing to 13 headquarters positions, although the
positions remained largely unstaffed, with only 7 of the 13 positions
filled. ATF currently has two Special Agents, four professional support
personnel, and one contractor dedicated to ESF-13.

       According to the Concept of Operations Plan, the National
Coordinator and Deputy National Coordinator are to be supported by an
interagency contingent of five Sector Coordinators, each responsible for
representing ESF-13 matters in coordination with Federal Emergency
Management Agency regional offices. 53 ATF initially planned to provide
some of the Sector Coordinators and requested that the remaining
coordinators be provided by other ESF-13 agencies. However, only one
agency, the DHS’s Customs and Border Protection, responded to ATF’s
request. As of March 18, 2010, ATF had decided not to staff the Sector
Coordinator position from interagency personnel but rather to staff the
position with contractors to coordinate with Federal Emergency
Management Agency regional offices. Until the contractors are hired,
ATF has temporarily assigned ATF liaisons in each of the Federal
Emergency Management Agency regions.

      Additionally, while the Department designated a Department
ESF-13 Coordinator in early 2009, as called for in the draft Concept of
Operations Plan, the individual selected currently performs this function
as a collateral duty. The Department ESF-13 Coordinator works with the
ATF ESF-13 National Coordinator, Deputy National Coordinator, and
other ESF-13 management personnel, but is not involved in routine
planning. The Department Coordinator is supposed to administer all
aspects of the support in the event of an ESF-13 activation, including
coordination between ATF’s ESF-13 staff and other federal officials. The
current Department ESF-13 Coordinator divides his time between ESF-
13 responsibilities and his work for the U.S. Attorney’s Office in the

       53 Each of the 10 Federal Emergency Management Agency regions has a
Regional Interagency Steering Committee that coordinates interagency and
intergovernmental issues related to disaster planning and operations.


U.S. Department of Justice                                                   33
Office of the Inspector General
Evaluation and Inspections Division
Eastern District of Louisiana. As of May 2010, a replacement ESF-13
Coordinator had been selected, but had not entered the position.

       Training. ATF has provided minimal training on implementing
ESF-13 responsibilities for ATF field office personnel, support agency
personnel, and state and local emergency operations officials. ESF-13
staff said that ATF field staff have not been trained to respond to a WMD
incident. The draft Concept of Operations Plan requires “training for all
levels of personnel involved in the program.” The training is intended to
enable ATF field office personnel to provide initial situation assessments
from an affected area to aid in the determination of the appropriate
response to requests for assistance. Training is also required to prepare
staff to resolve conflicting demands for public safety and security
resources; coordinate backup support from other geographical regions to
an affected area; and ensure that responding agencies are provided with
information on known hazards, mission requirements, appropriate
vaccinations, credentials, and personal protective equipment.

       ATF’s ESF-13 staff said training for ATF field office personnel,
support agency personnel, and state and local emergency operations
officials has not been fully implemented. According to ESF-13 staff, ATF
has trained only ATF personnel in Florida, Louisiana, Texas, Mississippi,
and Alabama field offices for an ESF-13 activation resulting from a
hurricane. ATF has provided field office ESF-13 Coordinators with an
ESF-13 briefing paper and slide show, and the draft Concept of
Operations Plan as guidance for how to respond in an ESF-13 activation.
ATF is in the process of training ATF Assistant Special Agents in Charge
(ASAC) in the requirements of being an ESF-13 Coordinator. The
training curriculum familiarizes these ASACs with ESF-13’s role in the
National Response Framework, the ESF-13 Concept of Operations Plan,
the Federal Emergency Management Agency mission assignment
process, and ESF-13’s interagency relationships. ATF has completed two
of these training sessions during FY 2009 and one during FY 2010. Two
additional training sessions are scheduled for May and June 2010. 54
Also, ATF provided similar ESF-13 training to approximately 20 of its
supervisors other than ASACs in FY 2009.

       54 During February 2010, ATF conducted ESF-13 training for approximately
45 members of its ESF-13 Assessment Teams. The Assessment Teams consists of ATF
ASACs, ATF Group Supervisors, ATF Crisis Management Coordinators, and personnel
from the USMS and DHS’s Federal Emergency Management Agency. The Assessment
Teams coordinate the needs for support with state emergency managers and ESF-13
Coordinators through embedded ESF-13 liaisons in the state emergency operations
centers.


U.S. Department of Justice                                                   34
Office of the Inspector General
Evaluation and Inspections Division
      Cataloging Resources. ATF has not developed a catalog of law
enforcement resources – people and equipment – available to be deployed
in an ESF-13 activation. The draft Concept of Operations Plan requires
ATF to screen and match approved ESF-13 mission assignments with
available Department and other federal law enforcement resources.
However, ATF does not have information on the resources available from
all ESF-13 agencies and does not have specific resource information for
Department components, particularly at the local level.

       Resource information is critical for ATF to identify the need for
ESF-13 support and analyze potential factors (for example, mapping,
modeling, and forecasting for crowd size, impact of weather, and other
conditions) that may affect resource allocations and requisite actions
affecting public safety and security in the event of a WMD incident. ATF
lacks information on ESF-13 agency resources because the other ESF-13
agencies have not responded fully to ATF’s requests for information.
Further, because of the lack of staffing, ATF has not designated anyone
to follow up on the requests and could not conduct the logistical resource
planning if the data were made available.

        Participation in National Level Exercises. ATF has not tested its
preparedness to carry out its ESF-13 responsibilities in any National
Level Exercises. The draft Concept of Operations Plan states that “ATF
will ensure ESF-13 participation is included in National Level Exercises
when appropriate to support the exercise scenarios.” 55 ESF-13 staff
explained that although they participated in the TOPOFF 4 National
Level Exercise, they did not exercise ESF-13 functions. Instead, ATF’s
exercise role was to provide support to the FBI. 56 The ESF-13 Program
Manager said ATF has not had the opportunity to evaluate ESF-13
operational readiness because ESF-13 has not been included in National
Level Exercises and ATF has not conducted any other operational
exercise. Participating in National Level Exercises will enable ATF to
fulfill the Department’s responsibility for conducting an evaluation of
operational readiness.


       55   The exercise scenarios are designed to test a response to a specific man-made
critical incident or natural disaster, such as an improvised nuclear device or an
earthquake.

       56 The TOPOFF 4 National Level Exercise was a congressionally mandated
terrorism preparedness exercise involving top officials at every level of government.
TOPOFF 4 was sponsored by the DHS and involved a 2-year cycle of seminars, planning
events, and exercises that culminated in a full-scale assessment of the nation’s capacity
to prevent, prepare for, respond to, and recover from terrorist attacks involving WMDs.


U.S. Department of Justice                                                            35
Office of the Inspector General
Evaluation and Inspections Division
        Deputation. The Concept of Operations Plan states that ESF-13
federal law enforcement officers “should not be deployed without being
deputized as a Deputy U.S. Marshal.” ESF-13 staff explained that ATF is
still in the process of determining how deputation will be implemented
during an ESF-13 activation. The ESF-13 Program Manager said ATF
has requested a written legal opinion from the Department that explains
the authority of federal law enforcement officers under ESF-13 so that
those law enforcement officers who are deputized know the extent of
their authorities. The NSD’s Director of Preparedness and Response said
that this lack of clarity regarding deputation could “paralyze an agent in
the field who doesn’t know if his actions are covered.”

       When we asked why ATF had been unable to implement the
ESF-13 Concept of Operations Plan, ATF officials stated that ATF lacked
the funds to fulfill the Department’s ESF-13 responsibilities. We
reviewed ATF budget documents and found the Department’s budget
request for FY 2011 was the first time that funding designated
specifically for ESF-13 activities was included in the Department’s
budget request to the President. 57 The requested funding would provide
for one ESF-13 National Coordinator, two program managers, two
intelligence analysts, one management analyst, and one program
analyst. ATF also requested $34,000 to fund two nationwide training
sessions per year to provide ESF-13 representatives with the necessary
skills and knowledge to successfully develop and maintain relationships
with ESF-13 state and local law enforcement partners.

In the National Capital Region, with the exception of preparing for
special events, WMD incident response planning depends primarily
on FBI resources and capabilities.

       The National Capital Region (NCR) is a potential target for
terrorists who may attempt to use WMD in an attack. In this review, we
examined the preparations of Department component field offices in the
NCR to respond to a WMD attack.

       As described in the sections above, the FBI has created plans and
assigned other resources for responding to a WMD incident and
participates in exercises that specifically include WMD scenarios in the
NCR. Further, we found that components regularly work with each
other, with other federal agencies, and with state and local law

       57 In 2006, as a part of the budget formulation for FY 2008, ATF requested
funding to support ESF-13 activities, but this request was not included in the
Department’s budget request for FY 2008.


U.S. Department of Justice                                                          36
Office of the Inspector General
Evaluation and Inspections Division
enforcement agencies to prepare to respond to critical incidents that may
occur during the frequent special events in the NCR. This regular
coordination for special events builds knowledge and relationships that
help prepare components for responding to incidents in the NCR.
Nonetheless, as previously noted in the report, WMD incident response
planning in the NCR depends primarily on FBI resources and
capabilities, and other components have conducted minimal WMD-
specific planning or training. In addition, some components’ personnel
in the NCR were not familiar with the responsibilities assigned to the
Department in the event ESF-13 is activated and did not know that ATF
is the Department’s designated lead coordinator of ESF-13.

The FBI has a WMD-specific plan and guides, and conducts exercises on
responding to a WMD incident in the NCR.

       The FBI’s Washington Field Office is the only component field office
in the NCR with a written plan and checklist to respond specifically to a
WMD incident in the NCR. The FBI’s plan identifies how the FBI will
work with other non-Department agencies and state and local law
enforcement and emergency response agencies. However, the FBI plan
does not include any stated role for the Department’s other law
enforcement components in the NCR. FBI NCR officials said if the FBI
needed support for its response to a WMD incident from the other
components’ NCR field offices, they would contact those field offices
through their representatives on the Joint Terrorism Task Force to
coordinate the support. 58

       Additionally, the FBI’s Washington Field Office conducts exercises
on responding to WMD incidents in the NCR. According to FBI exercise
data, from FY 2005 through FY 2009 the FBI Washington Field Office led
or participated in 29 field training or tabletop WMD exercises. These
exercises included state and local law enforcement, as well as other
federal agencies, including the DHS and the Departments of Defense and
Energy. However, other DOJ component field offices did not participate
in the 29 FBI exercises and, other than scheduled special events, did not
participate in any other WMD response activities with the FBI. Our
interviews with other components’ NCR field office managers confirmed
that they do not participate in WMD exercises or any other WMD
response activities with the FBI except for special events.


       58  Joint Terrorism Task Forces operate in 100 cities nationwide. They are based
out of the 56 FBI field offices and 10 smaller offices around the country and include
representatives from local, state, and federal law enforcement agencies.


U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
NCR field offices regularly coordinate with each other to prepare to
respond to critical incidents that may occur during special events.

       We found that NCR field offices regularly coordinate with each
other to prepare to respond to critical incidents, including WMD
incidents, which may happen during the special events that frequently
occur in the NCR. Many of these events are unique to the NCR, such as
presidential inaugurations, State of the Union Addresses, visits by heads
of state, and mass political demonstrations. Planning for these events is
led by non-Department agencies within the NCR, and Department NCR
field offices participate and coordinate through the FBI’s local Joint
Terrorism Task Force.

       The field offices also meet regularly with the local police
departments, as well as other federal, state, and local law enforcement
agencies to discuss threats and prepare for these special events. In
addition, ATF, DEA, and FBI officials told us they meet with the
Metropolitan Washington Council of Governments to discuss incident
response in the NCR. 59 USMS officials said they do not participate in
such meetings. As a result of the frequent coordination for special
events, NCR field office staff told us they are aware of other agencies’
roles and the resources that are available from them if a WMD incident
should occur during a special event. However, we believe that WMD
planning for special events does not adequately prepare NCR components
for a WMD incident that occurs outside of a special event. For example,
during special events roles and responsibilities are pre-determined and
resources are on standby, which would not be the case for incidents that
occur at other times.

Most NCR component field offices have conducted little or no planning
specifically for responding to a WMD incident and have no defined role in
the FBI’s WMD response plans.

      Although the NCR field offices’ preparations for special events
include planning for WMD incidents, we found that preparations for a
WMD incident that might occur at times other than during a special
event were lacking.


       59  The Metropolitan Washington Council of Governments is a regional
organization of 21 Washington-area local governments that develops regional responses
to such issues as public safety, the environment, affordable housing, economic
development, health and family concerns, human services, population growth, and
transportation.


U.S. Department of Justice                                                        38
Office of the Inspector General
Evaluation and Inspections Division
       The ATF, DEA, and USMS field offices had no plans that
specifically addressed responding to a WMD incident. Although NCR
USAOs maintained all-hazard Critical Incident Response Plans, we found
no specific WMD-related response guidance as contained in EOUSA’s
Critical Incident Response Plan template. 60 When we asked field office
officials from other components why they did not have WMD-specific
plans, they stated that they believed the FBI would be the Department’s
lead responder in the event of a WMD incident in the NCR and that their
roles would be limited to supporting the FBI’s response. Both ATF’s
Acting Special Agent in Charge and the DEA’s Special Agent in Charge of
their Washington field offices said that they believed the FBI is aware of
their agencies’ capabilities and resources and would request them as
needed. When asked if they were familiar with the FBI’s WMD response
plans, only the USAO officials said that they were aware of the plans.
ATF, DEA, and USMS field office officials were not familiar with the
plans. Further, the ATF, DEA, and USMS field office officials stated that
they had not asked to see the FBI’s plans to determine whether they
would be included in the FBI’s response.

       The Special Agent in Charge of the FBI’s Washington Field Office
Counterterrorism Division confirmed that no other component had asked
to review the WMD response plan, but said he “did not see why it would
be a problem” for other Department components to review it.

Some component officials in NCR field offices are not aware of ESF-13 or
ATF’s role as the Department’s lead coordinator if ESF-13 is activated
during a WMD incident.

       To determine if the Department components’ field offices are
prepared to carry out the Department’s responsibilities for ensuring
public safety and security if ESF-13 was activated in the NCR during a
WMD incident, we asked 12 NCR field office managers about ESF-13
requirements and assignments. Only three officials (one each from ATF,
the FBI, and the USAO) knew of the Department’s responsibilities under
ESF-13 and that ATF is designated as the Department’s lead coordinator
if ESF-13 is activated. Another three officials (one from the FBI field
office and two USAO staff) knew about the Department’s ESF-13
responsibilities, but not that ATF is the Department’s lead coordinator.
Six officials (one each from the FBI and the DEA, and four USMS



       60We reviewed the Critical Incident Response Plans for the District of Columbia
and the Eastern District of Virginia.


U.S. Department of Justice                                                         39
Office of the Inspector General
Evaluation and Inspections Division
officials) were not familiar with either ESF-13 or ATF’s designated role for
the Department.

      This lack of awareness on the part of field office managers
regarding ATF and ESF-13 is problematic. Field office managers should
be familiar with how their components would participate in a coordinated
national response to a WMD incident. Although requests for support
would most likely come from headquarters to the field offices, effective
coordination of the federal, state, and local response would be critical
during an ESF-13 activation. The lack of familiarity regarding national
plans, such as ESF-13, could inhibit a coordinated response and
valuable time could be wasted in providing needed resources, as was
seen during the response to Hurricane Katrina in 2006. 61

       In sum, although law enforcement agencies in the NCR coordinate
regularly because of the preparations and cooperation required for
frequent special events, we believe improvements are needed to ensure
NCR field offices are prepared to quickly and safely respond to a WMD
incident. In a WMD incident, agencies’ roles are not specified and
resources are not pre-positioned as during a special event. Moreover, the
hazard presented by a WMD – as opposed to conventional or improvised
explosives or natural disasters – is unique. Without WMD-specific
training and response plans, responders may be at greater risk of
becoming casualties. Because the component field offices in the NCR
other than the FBI have no WMD-specific response plans or training, and
have not participated in WMD-specific exercises, it is uncertain that they
are fully prepared to safely and effectively contribute to the Department’s
overall response in the event of a WMD incident. Moreover, the lack of
awareness regarding the Department’s ESF-13 responsibilities, and
ATF’s authority to serve as the lead coordinator for those activities, could
delay a coordinated federal law enforcement response to a WMD incident
that requires activation of ESF-13 in the NCR.




       61  The White House, The Federal Response to Hurricane Katrina (February
2006), p. 53.


U.S. Department of Justice                                                        40
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



      Our review concluded that only the FBI has taken adequate steps
to prepare to respond to a potential WMD attack. The FBI’s WMD
Directorate manages its WMD operational response activities and
establishes the responsibilities for its units that will respond. The FBI
has headquarters and field office operations plans, handbooks, and other
resources for responding to WMD incidents. The FBI regularly provides
WMD-specific training to its personnel who are likely to respond to a
WMD incident. The FBI regularly conducts or participates in WMD
response exercises, having taken part in over 900 exercises from FY 2005
through FY 2009. FBI field offices track their participation in exercises,
although after action reports based on the exercises are not consistently
prepared.

       However, neither the Department nor the components within the
Department have implemented adequate WMD response plans.
The Department has not designated an entity or individual to provide
central oversight of WMD-related activities, and responsibility for
management of the Department’s response program is uncoordinated.
The Department has not updated its policies to reflect recent national
policies, existing policies have not been fully implemented, and we found
no Department policies or plans for responding to a WMD incident.

       Aside from the FBI, the Department’s other law enforcement
components’ preparations for responding to a WMD incident are also
lacking. Officials of ATF, the DEA, and the USMS all indicated that they
would support the FBI’s response to a WMD incident. However, none of
these components has specific WMD operational response plans,
provides training for responding to a WMD incident, or regularly
participates in WMD response exercises. We found the response
planning among all the components, including the FBI, to be
inconsistent and not well coordinated.

        In addition, the Department has not adequately prepared to
coordinate federal law enforcement activities if it is called upon to ensure
public safety and security in accordance with ESF-13 in the event of a
WMD incident. A Concept of Operations Plan proposed in January 2008
to guide the Department in implementing its ESF-13 responsibilities was
still in draft as of March 2010. ATF has not assigned adequate staff to
ensure all ESF-13 planning and coordination activities required by the
National Response Framework are carried out. ATF has not provided
adequate training in ESF-13 responsibilities to its own staff or personnel

U.S. Department of Justice                                               41
Office of the Inspector General
Evaluation and Inspections Division
from other ESF-13 agencies. ATF also lacks comprehensive information
on law enforcement resources that could be deployed during an incident.

       In the National Capital Region, coordination is aided by the regular
preparations and cooperation required for the frequent special events in
the region. However, other than the FBI, Department field offices in the
NCR have no WMD-specific response plans or training and have not
participated in WMD-specific exercises. Moreover, we found a lack of
awareness regarding the Department’s ESF-13 responsibilities and ATF’s
authority to serve as the lead coordinator for those activities, which could
delay the execution of a coordinated federal law enforcement response in
the event of a WMD incident in the NCR.

      In this report, we make five recommendations to help the
Department better prepare to respond to a WMD incident and to fulfill its
responsibilities under ESF-13. We recommend that the Department:

       1. Designate a person or office at the Department level with the
          authority to manage the Department’s WMD operational
          response program.

       2. Update its response policies and plan to conform them to the
          National Response Framework and the National Incident
          Management System.

       3. Require Department components to update their own policies
          and plans to reflect the updated Department guidance, and to
          reflect the need for adequate coordination among Department
          components in responding to WMD incident.

       4. Establish effective oversight to ensure that components
          maintain WMD response plans, participate in training and
          exercises, and implement a corrective action program in
          response to such exercises.

       5. Ensure that the Department is prepared to fulfill its emergency
          support function responsibilities under the National Response
          Framework, including reviewing the designation of ATF as the
          Department’s lead agency to coordinate public safety and
          security activities, approving a Concept of Operations Plan, and
          staffing national and regional coordinator positions.




U.S. Department of Justice                                                42
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX I: METHODOLOGY OF THE OIG REVIEW



        The methodology used in this review consisted of interviews with
officials from the Department and its components, document review,
data analysis, and observation of component training. In addition, site
visits were conducted at the FBI’s Critical Incident Response Group and
facilities in Quantico, Virginia, and at the FBI and ATF field offices in the
National Capital Region.

Interviews

       To obtain an overview of the Department and its components’
activities concerning operational response, we conducted 79 in-person
and telephone interviews with personnel from the Department, the
components included in the review, and other federal agencies. Table 4
lists the individuals interviewed.

            Table 4: Officials Interviewed During the Review
Organization                                       Position
Office of the       Special Assistant to the Deputy Attorney General
Deputy Attorney     Special Counsel to the Deputy Attorney General
General
Justice             Director, SEPS
Management          Associate Director, SEPS
Division
                    Attorney Advisor, SEPS
                    Emergency Management Specialist, SEPS
                    Deputy Assistant Attorney General, Policy, Management, and
                    Planning
National Security   Assistant Attorney General
Division            Counsel
                    National Crisis Management Coordinator, Counter Terrorism
                    Section
                    National Anti-Terrorism Advisory Council Coordinator, Counter
                    Terrorism Section
                    Chief of Staff
Criminal Division   Director, Security and Operations Support
                    Physical Security Specialist
                    Emergency Management Specialist
ATF                 Acting Assistant Director of Field Operations
                    Special Agent in Charge and National ESF-13 Coordinator, Special
                    Events Branch
                    Deputy Chief, ATF Arson and Explosives Program Division

U.S. Department of Justice                                                          43
Office of the Inspector General
Evaluation and Inspections Division
Organization                                      Position
                    Assistant Special Agent in Charge, Washington Field Division
                    ATF Counsel, Washington Field Division
                    Program Manager, ATF Critical Incident Response Program
                    Contractor, ATF Critical Incident Response Program
                    Chief, ATF Office of Field Operations, Special Operations Division
BOP                 Chief, Emergency Preparedness
                    Emergency Management Specialist
DEA                 Section Chief, Office of Emergency Management, Command
                    Center and Emergency Preparedness Section
                    Deputy Chief, Command Center and Crisis Preparedness Section
                    Special Agent in Charge, Washington Field Office
                    Assistant Special Agent in Charge, Washington Field Office
EOUSA               Attorney Advisor, Office of the Director
                    Counsel, Emergency Management and Crisis Response, Office of
                    the Director
                    National Emergency Management Coordinator
FBI                 Assistant Director, Weapons of Mass Destruction Directorate
                    Assistant Director, Critical Incident Response Group
                    Section Chief, Critical Incident Response Group
                    Supervisory Special Agent/Unit Chief, Crisis Management Unit
                    Critical Incident Response Group
                    Supervisory Special Agent, Crisis Management Unit Critical
                    Incident Response Group
                    Chief, Operations Support Branch, Crisis Management Unit
                    Critical Incident Response Group
                    Special Agent/Unit Chief, Weapons of Mass Destruction
                    Directorate
                    Unit Chief, Executive Strategy Unit, Weapons of Mass Destruction
                    Directorate
                    Unit Chief, WMD Operations Unit 1, Weapons of Mass Destruction
                    Directorate
                    Countermeasures and Preparedness Section Chief, Weapons of
                    Mass Destruction Directorate
                    Unit Chief, WMD Countermeasures Unit, Weapons of Mass
                    Destruction Directorate
                    Supervisory Special Agent, WMD Countermeasures Unit, Weapons
                    of Mass Destruction Directorate
                    Special Agent, FBI Liaison to DHS
                    Assistant Director, FBI Laboratory Division, Weapons of Mass
                    Destruction Directorate
                    Chief, Operational Response Section, FBI Laboratory Division,
                    Weapons of Mass Destruction Directorate
                    Unit Chief, National Preparedness Unit, Weapons of Mass

U.S. Department of Justice                                                          44
Office of the Inspector General
Evaluation and Inspections Division
Organization                                      Position
                    Destruction Directorate
                    Supervisory Special Agency, National Preparedness Unit, Weapons
                    of Mass Destruction Directorate
                    Unit Chief, Strategic Information Operations Center
                    Unit Chief, Crisis Coordination Administration Unit, Strategic
                    Information Operations Center
                    Assistant Director, Operational Technology Division
                    Supervisory Special Agent/Assistant Section Chief, Technical
                    Programs Section, Operational Technology Division
                    Unit Chief, Technical Programs Section, Operational Technology
                    Division
                    Supervisory Special Agent, National Capital Response Squad,
                    Washington Field Office
                    Special Agent in Charge, Counterterrorism Division, Washington
                    Field Office
                    Special Agent, National Capital Response Squad, Washington
                    Field Office
Office of Legal     Special Counsel
Counsel
Office of Legal     Chief of Staff and Senior Counsel
Policy              Management and Program Analyst
USAO                District of Washington, D.C., Assistant U.S. Attorney
                    District of Maryland, Assistant U.S. Attorney
                    Eastern District of Virginia, Assistant U.S. Attorney
USMS                Chief Inspector, Office of Emergency Management
                    Inspector, Office of Emergency Management
                    Deputy Assistant Director of Judicial Operations, Judicial
                    Security Division
                    Deputy Assistant Director of Judicial Services, Judicial Security
                    Division
                    Chief, Office of Security Systems, Judicial Security Division
                    Assistant Chief Deputy for the District of Maryland
                    Supervisory Deputy, United States Marshal, Washington, D.C.,
                    Superior Court
                    Judicial Security Inspector, Deputy U.S. Marshal, District of
                    Washington, D.C.
                    Judicial Security Inspector, Eastern District of Virginia
Department of       Assistant Deputy Administrator, National Preparedness
Homeland Security   Directorate, Federal Emergency Management Agency
                    Associate Director, Office of National Capital Region Coordination,
                    Federal Emergency Management Agency
                    Branch Chief, Operations Planning Branch, Disaster Operations
                    Directorate, Federal Emergency Management Agency


U.S. Department of Justice                                                           45
Office of the Inspector General
Evaluation and Inspections Division
Organization                                     Position
                    Director, Preparedness and Mitigation, Office of the Inspector
                    General
                    Inspector, Office of the Inspector General
                    Assistant Administrator, National Integration Center, Federal
                    Emergency Management Agency
                    Director, Preparedness Policy, Planning, and Analysis, Federal
                    Emergency Management Agency

Document Reviews and Data Analyses

       We reviewed Homeland Security Presidential Directives, national
policies, Department orders, and component policies pertaining to
operational response. We also reviewed component training data to
determine whether the Department or its components were providing the
required training.

      We performed a quantitative analysis of the relevant interviewees’
responses to determine the extent to which the Department and its
components have prepared to respond to a WMD incident. We also
reviewed exercise data from the FBI in the review concerning WMD
incidents to determine the frequency of participation in WMD-related
exercises. We specifically requested that the FBI provide data regarding
the exercises it had conducted that involved responding to a WMD
incident.

Site Visits

       We visited ATF and FBI field offices in the National Capital Region.
The National Capital Region is composed of the District of Columbia and
nearby jurisdictions in Virginia and Maryland. We also contacted by
telephone the DEA and USMS field offices in the District of Columbia and
Virginia, as well as the U.S. Attorneys’ Offices in the District of Columbia,
the Eastern District of Virginia, and Maryland. Because the FBI has a
significant role in operational response, we also visited the FBI’s Critical
Incident Response Group and the Operational Technology Division in
Quantico, Virginia, to learn more about the FBI’s capabilities. In
addition, we attended EOUSA’s Regional Security Specialist and Crisis
Management Coordinator conference in Columbia, South Carolina.




U.S. Department of Justice                                                           46
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX II: EMERGENCY SUPPORT FUNCTIONS AND ESF 

                       COORDINATORS 



ESF-1 – Transportation
ESF Coordinator: Department of Transportation
     •	 Aviation/airspace management and control
     •	 Transportation safety
     •	 Restoration and recovery of transportation infrastructure
     •	 Movement restrictions
     •	 Damage and impact assessment

ESF-2 – Communications 

ESF Coordinator: DHS (National Communications System) 

     •	 Coordination with telecommunications and information
        technology industries
     •	 Restoration and repair of telecommunications infrastructure
     •	 Protection, restoration, and sustainment of national cyber and
        information technology resources
     •	 Oversight of communications within the federal incident
        management and response structures

ESF-3 – Public Works and Engineering
ESF Coordinator: Department of Defense (U.S. Army Corps of
Engineers)
     •	 Infrastructure protection and emergency repair
     •	 Infrastructure restoration
     •	 Engineering services and construction management
     •	 Emergency contracting support for life-saving and life-
        sustaining services

ESF-4 – Firefighting 

ESF Coordinator: Department of Agriculture (U.S. Forest Service) 

     •	 Coordination of federal firefighting activities
     •	 Support to wildland, rural, and urban firefighting operations

ESF-5 – Emergency Management 

ESF Coordinator: DHS (Federal Emergency Management Agency) 

     •	 Coordination of incident management and response efforts
     •	 Issuance of mission assignments
     •	 Resource and human capital


U.S. Department of Justice                                           47
Office of the Inspector General
Evaluation and Inspections Division
       •	 Incident action planning
       •	 Financial management

ESF-6 – Mass Care, Emergency Assistance, Housing, and Human
Services
ESF Coordinator: DHS (Federal Emergency Management Agency)
      •	 Mass care
      •	 Emergency assistance
      •	 Disaster housing
      •	 Human services

ESF-7 – Logistics Management and Resource Support
ESF Coordinator: General Services Administration and DHS (Federal
Emergency Management Agency)
     •	 Comprehensive, national incident logistics planning,
        management, and sustainment capability
     •	 Resource support (facility space, office equipment and supplies,
        contracting services, etc.)

ESF-8 – Public Health and Medical Services
ESF Coordinator: Department of Health and Human Services
  •	 Public health
  •	 Medical
  •	 Mental health services
  •	 Mass fatality management

ESF-9 – Search and Rescue 

ESF Coordinator: DHS (Federal Emergency Management Agency)

  •	 Life-saving assistance
  •	 Search and rescue operations

ESF-10 – Oil and Hazardous Materials Response
ESF Coordinator: Environmental Protection Agency
     •	 Oil and hazardous materials (chemical, biological, radiological,
        etc.) response
     •	 Environmental short- and long-term cleanup

ESF-11 – Agriculture and Natural Resources
ESF Coordinator: Department of Agriculture
     •	 Nutrition assistance
     •	 Animal and plant disease and pest response
     •	 Food safety and security

U.S. Department of Justice                                             48
Office of the Inspector General
Evaluation and Inspections Division
       •	 Natural and cultural resources and historic properties
          protection
       •	 Safety and well-being of household pets

ESF-12 – Energy
ESF Coordinator: Department of Energy
     •	 Energy infrastructure assessment, repair, and restoration
     •	 Energy industry utilities coordination
     •	 Energy forecast

ESF-13 – Public Safety and Security
ESF Coordinator: Department of Justice
     •	 Facility and resource security
     •	 Security planning and technical resource assistance
     •	 Public safety and security support
     •	 Support to access, traffic, and crowd control

ESF-14 – Long-Term Community Recovery 

ESF Coordinator: DHS (Federal Emergency Management Agency)

     •	 Social and economic community impact assessment
     •	 Long-term community recovery assistance to states, tribes, local
        governments, and the private sector
     •	 Analysis and review of mitigation program implementation

ESF-15 – External Affairs
ESF Coordinator: DHS
     •	 Emergency public information and protective action guidance
     •	 Media and community relations
     •	 Congressional and international affairs
     •	 Tribal and insular affairs


Source: National Response Framework.




U.S. Department of Justice                                            49
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX III: DEPARTMENT’S ESF-13 RESPONSIBILITIES 



Responsibility                   Department ESF-13 Responsibilities
      1          • Serves as the headquarters and regional-level ESF-13 coordinator
                   and primary agency.
                 • Represents the ESF-13 agencies on the ESF Leaders Group and the
                   Regional Interagency Steering Committee.
                 • Coordinates preparedness activities with ESF-13 supporting
                   agencies.
      2          • Provides expertise on public safety and security issues to the
                   Domestic Readiness Group, when requested.
      3          • Manages ESF-13 preparedness activities and conducts evaluation of
                   operational readiness, including a roster and description of public
                   safety and security activities.
      4          • Maintains close coordination during operations between the affected
                   regional office(s), the National Response Coordination Center, other
                   ESFs, local FBI Joint Terrorism Task Forces, and the National Joint
                   Terrorism Task Force, as required.
      5          • Ensures that all activities performed under the purview of ESF-13
                   are related to the mission of ESF-13. If any potential for conflict
                   exists, it is the Department’s responsibility to resolve these issues
                   prior to accepting the mission assignment.
      6          • Facilitates resolution of any conflicting demands for public safety
                   and security resources, expertise, and other assistance.
                 • Coordinates backup support from other geographical regions to the
                   affected area.
      7          • Processes mission assignments, tracks resource allocation and use,
                   and facilitates reimbursement to assisting departments and
                   agencies via emergency management funding mechanisms and
                   authorities, if appropriate.
      8          • Obtains initial situation assessment from field units and determines
                   appropriate management response to anticipated or current
                   requests for assistance.
      9          • Obtains and distributes incident contact information to supporting
                   agency coordinators for emergency responders.
      10         • Assesses requests before committing resources, and ensures
                   responding agencies are provided with information on known
                   hazards, mission requirements, appropriate vaccinations,
                   credentials, and personal protective equipment to operate in the
                   environment to which they are assigned.

Source: National Response Framework, Annex 13.




U.S. Department of Justice                                                            50
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IV: THE OFFICE OF THE DEPUTY ATTORNEY GENERAL 

               RESPONSE TO DRAFT REPORT 




                                                                                  u.s. J)cllartment or J ustice

                                                                                 Office of the Deputy Allomey Gcncral




                                                                                  1I.o\a) 25.2010


        The Honorable Glenn A. Fine
        JnSpl"ctor General
        U.S. Department of 1ustiee
        950 Pennsylvania Avenue, N. W.
        Washington. D.C. 20530

                  Il l':     Office or the       JII ~ J)('e l or   Gelll'r:IJ's RqJOrl O il th e Ilqmrtmenl 's J' rC[JllrHl iun 10
                             R('spu ud 10 a W ea pons               or Mass l)eslrU CliOIi (W i\'1D) J llcidl'nt
        Dear Mr. Fine:
                I am writing to provide the Dep:mlllcnl of Justiee's formal response to the above­
        referenccd rcport.

                   We appreciate the work of the Ollice of the Inspector General (DIG) in reviewing the
        way in which Department components havc prcpared to respond \0 a Weapons of Mass
        Destruction (WMD) incidclll. Prcven tin g terrorist attacks. including WMD attacks. is the
        Department's highcst priority. Thc Departmcnt has tasked the Fcdcnlll3ureau of Investigation
        (1'131) with le nd responsibility for prcvcming WMD attacks in the United States and for
        responding to such attacks should they occur. FDI brings specialized investigatory. crl1ergenc~
        respo nse. and forensic capabilities to that endeavor. We agree with the O[G that the FBI has
        taken appropriate steps 10 preparc to respond to It potential WMD ,1!\ack and thm Ihe FD['s
        substantial training regime 10 investiglltc :l1ld pre\'cnt WMD threats is a benefit to the countr} .
        We also agree that the FOI is notlhe only Department entity respo nsible lor :lddrcssing WMD
        allae k ~ , and thllllhe entire Dcpanment must be prepared to respond cfTeet ivcly to a WM]) attack
        (or any other emergency event) should one occur.
               The Dcpanmelll believes Ihat the l'undamcnt:11 conclusion of lhe report is sound: Ihe
        Depllrtmenl o f Justice should do more in order to lormall) and ccnlrally coordinate cmergeney
        response activities of all appropri:lle Dcpanment components. The o\'eroll reeommendlltions of
        the rcport strike uS os helpful and inlonnativc. WI.' Cllll Clir ill 111//i1'C r eCOlIIlIIl!lItillfilJlu. 111111 ...iff
        illlplc lII/.'1I1 111/ oj 'h I.' r l.'cmllllll.'lII/lIfi o llS i ll 'h e IIIl11l11er (k~cribell b e/ow.

                We also nOle. howe\·er. the subslantial improvemenlS made during the paSI year in the
        capacity of the Department and its law cnforcernellt componenls to implemcnt Emcrgency
        Support Function il l) of the Nationlll Response Fmrnework. Progress in this regard has becn
        measurable li nd wi!! continue as the Depanment's ESF-l) dUlies receive incrc;lsed funding in the
        future. Additionally. as Ihe report nOles.the ESF-13 limetion is designed to work relative to all




U.S. Department of Justice                                                                                                            51
Office of the Inspector General
Evaluation and Inspections Division
                                                                  .


       Ilazards (i t'" natural disasters or terrorist cvents). Tile Burenu of f\lcohol. Toba~~o, I'i~arms
       and Explosives has tested its ESF- I 3 protocols on three occasions since 2006, and each occasion
       W:IS successful.


               The Departmem will respond quickly to the OIG·s n::eommend3tions wilh 3 series of
      aetiolls thnt will create a clearer and more fOrm31 system to ensure that all Justice Departmellt
      emergency response functions. continuity of operations progroms, alld cOlltilluity of go\"cnll1li:m
      programs arc up to dme. aligllcd with llatiOllal policies. and well-coordinated within the
      Dep.1rtmcnt. Spt:cilic3l1y, the Dep.1rtmenl intends to accomplish the 1"0110\\ ing tnsks in the
      coming weeks:
              I,   T~   Acting Deputy Anomc), Geneml will issue a melllonlIldlllll to all compollellls
                   idemifying nil individual in the Office o(the DepUt)' Anomer General (ODAG)
                   responsible for ovcrseeing cllll"fgem:y rcsponse 3(;li"ities of Ihe Department. This
                   individual \\ill serve as a single poim of comact wilhin the leadership officl.'s of the
                   Departmcnt for nil emergency response ac tivities, will ensure that the Department's
                   emergency response program is up to date, and will ensure tha! Departmenttrainillg
                   acth'itics relative to emergency response functions are thorough and widely availablc
                   to relevant Department components.

              2. The Department will create a new commillee of relevant Department componentS that
                 will ensure that the Department's leadel'Jihip offices rceeivt' timely and thorough
                 ad\'iee and r<:'eommrndations (Ibom emcrgeney response preparedness issues.

              J. The commillee noted nbove will be tasked to fCview Department policies and
                 directives related to emergency response' funct ions. continuity of opt:rations and
                 continuity o( government progrJffiS to ensure that the)' arc effective and up to date.
                 This review will stretch beyond \\1M]) mailers (since the Dcpartment must be
                 prepared to address a wide variety of potential emergencies) but \\IMD issues will be
                 accounted for in the review. ODAG will ensure that the ])ep:'lrtlllenl'S W~ID
                 emergency fCsponse eap(lbilities (Ire consistent with the Department'S other
                 emergency response capabilities.

              We beliel'e that these actions wil! result in a stronger and durable system of cOccti\'e
       man(lgclntnt and ol'el'liight conlrols for emergency responsc (lcti\'ities.




                                                              ames A. Baker
                                                             Associate Deputy Allomey Gello:'ral




                                                         ,




U.S. Department of Justice                                                                                    52
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX V: OIG ANALYSIS OF THE OFFICE OF THE DEPUTY 

               ATTORNEY GENERAL RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Office of the Deputy Attorney General for its comment. The ODAG’s
response is included in Appendix IV to this report. The OIG’s analysis of
the ODAG’s response and the actions necessary to close the
recommendations are discussed below.

General Comment

      Summary of ODAG Comment. The ODAG response stated that
there have been substantial improvements made during the past year in
the capacity of the Department and its law enforcement components to
implement Emergency Support Function-13 (ESF-13) of the National
Response Framework. According to the ODAG, progress in this regard
has been measurable and will continue as the Department’s ESF-13
duties receive increased funding in the future. The ODAG also stated
that the ESF-13 function is designed to work relative to all hazards (that
is, natural disasters or terrorist events). Further, the ODAG response
stated that the Bureau of Alcohol, Tobacco, Firearms and Explosives has
tested its ESF-13 protocols on three occasions since 2006, and each
occasion was successful.

       OIG Analysis. Our report describes many of the actions taken by
the Department and ATF related to ESF-13. However, while we
acknowledge these activities, it is important to note that none specifically
involved a WMD incident. For example, according to ATF, since 2006 it
has participated in at least 10 incidents where ESF-13 played a crucial
role in coordinating a federal law enforcement response when state and
local law enforcement agencies were overwhelmed. However, these
incidents included six hurricanes, one tropical storm, one wildfire, and
two floods. None involved responding to a WMD incident.

Recommendation 1. Designate a person or office at the Department
level with the authority to manage the Department’s WMD
operational response program.

       Status. Resolved – open.

       Summary of the ODAG Response. The ODAG concurred with
this recommendation and stated that the Acting Deputy Attorney General
will issue a memorandum to all components identifying an individual in

U.S. Department of Justice                                               53
Office of the Inspector General
Evaluation and Inspections Division
the ODAG responsible for overseeing the emergency response activities of
the Department. This individual will serve as a single point of contact
within the leadership offices of the Department for all emergency
response activities, will ensure that the Department’s emergency
response program is up to date, and will ensure that Department
training activities related to emergency response functions are thorough
and widely available to relevant Department components.

      OIG Analysis. The actions planned by the ODAG are responsive to
our recommendation. Please provide the OIG with a copy of the
memorandum identifying the individual in the ODAG responsible for
overseeing the emergency response activities of the Department.

Recommendation 2. Update the Department’s response policies and
plan to conform them to the National Response Framework and the
National Incident Management System.

       Status. Resolved – open.

       Summary of the ODAG Response. The ODAG concurred with
this recommendation and stated that the Department will respond
quickly to the OIG’s recommendations with a series of actions that will
create a clearer and more formal system to ensure that all Department
emergency response functions, continuity of operations programs, and
continuity of government programs are up to date, aligned with national
policies, and well coordinated within the Department.

       Further, the Department will create a new committee of relevant
Department components that will ensure that the Department’s
leadership offices receive timely and thorough advice and
recommendations about emergency response preparedness issues. The
committee will be tasked to review Department policies and directives
related to emergency response functions, continuity of operations and
continuity of government programs to ensure that they are effective and
up to date. The ODAG stated further that this review will stretch beyond
WMD matters (since the Department must be prepared to address a wide
variety of potential emergencies), but WMD issues will be accounted for
in the review. The ODAG will ensure that the Department’s WMD
emergency response capabilities are consistent with the Department’s
other emergency response capabilities.

      OIG Analysis. The actions planned by the ODAG are responsive to
our recommendation. Please provide the OIG a copy of the Department’s
new policies, directives, and a WMD plan that are in conformance with

U.S. Department of Justice                                           54
Office of the Inspector General
Evaluation and Inspections Division
national policies and a list of the members of the committee of relevant
Department components who will be responsible for emergency response
preparedness issues.

Recommendation 3. Require Department components to update
their own policies and plans to reflect the updated Department
guidance, and to reflect the need for adequate coordination among
Department components in responding to WMD incident.

       Status. Unresolved – open.

       Summary of the ODAG Response. The ODAG concurred with
this recommendation. The ODAG stated in its response that the Federal
Bureau of Investigation is not the only Department entity responsible for
addressing WMD attacks and that the entire Department must be
prepared to respond effectively to a WMD attack (or any other emergency
event) should one occur.

      OIG Analysis. The ODAG’s response is partially responsive to our
recommendation. The ODAG did not state that it will require
Department components to update their own policies and plans to reflect
the updated Department guidance, or to reflect the need for adequate
coordination among Department components in responding to a WMD
incident. Please provide the OIG a description of the actions Department
components will take to revise their policies and plans to reflect the
updated Department guidance and to reflect the need for adequate
coordination among the components in responding to a WMD incident.

Recommendation 4. Establish effective oversight to ensure that
components maintain WMD response plans, participate in training
and exercises, and implement a corrective action program in
response to such exercises.

       Status. Unresolved – open.

       Summary of the ODAG Response. The ODAG concurred with
this recommendation and stated in its response that the Department
should do more to formally and centrally coordinate emergency response
activities of all appropriate Department components. The ODAG stated
that the individual assigned responsibility for overseeing emergency
response activities will ensure that Department training activities related
to emergency response functions are thorough and widely available to
relevant Department components.


U.S. Department of Justice                                               55
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. The actions planned by the ODAG are partially
responsive to our recommendation. The response does not address the
maintenance of WMD response plans, participation in exercises, or the
implementation of a corrective action program in response to such
exercises. Please provide the OIG with the actions planned to ensure
that the components maintain WMD response plans, participate in
training and exercises, and implement a corrective action program in
response to such exercises.

Recommendation 5. Ensure that the Department is prepared to
fulfill its emergency support function responsibilities under the
National Response Framework, including reviewing the designation
of ATF as the Department’s lead agency to coordinate public safety
and security activities, approving a Concept of Operations Plan, and
staffing national and regional coordinator positions.

       Status. Unresolved – open.

       Summary of the ODAG Response. The ODAG concurred with
this recommendation and noted in its response that there have been
substantial improvements made during the past year in the capacity of
the Department and its law enforcement components to implement
Emergency Support Function 13 of the National Response Framework.
The ODAG stated that progress in this regard has been measurable and
will continue as the Department’s ESF-13 duties receive increased
funding in the future. The ODAG stated that the Bureau of Alcohol,
Tobacco, Firearms and Explosives has tested its ESF-13 protocols on
three occasions since 2006 and each occasion was successful.

      OIG Analysis. The ODAG’s response is partially responsive to our
recommendation. While the ODAG in its response stated that ATF has
tested its ESF-13 protocols on three occasions since 2006, and each
occasion was successful, none of these tests involved a response to a
WMD incident. The response also did not specifically indicate how the
Department will ensure that it is prepared to fulfill its emergency support
function responsibilities under the National Response Framework.
Further, the response did not address whether the Department plans to:

    •	 review the designation of ATF as the Department’s lead agency to
       coordinate public safety and security activities,
    •	 approve a Concept of Operations Plan, or
    •	 staff the national and regional coordinator positions.



U.S. Department of Justice                                              56
Office of the Inspector General
Evaluation and Inspections Division
      Please provide the OIG with information on how the Department
plans to ensure that it is prepared to fulfill its emergency support
function responsibilities under the National Response Framework,
including whether it plans to review ATF’s designation as the
Department’s lead agency for ESF-13 matters, its plans for finalizing and
approving a Concept of Operations Plan, and its plans for staffing all the
national and regional coordinator positions.

      Please provide the OIG with the information described above in
each recommendation, or the status of the planned actions, by July 30,
2010.




U.S. Department of Justice                                              57
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX VI: THE DRUG ENFORCEMENT ADMINISTRATION 

                 RESPONSE TO DRAFT REPORT 



                                                                    U. S.
                                                                       S, Ofp
                                                                          Otpaa rtm t nl o fr Ju
                                                                                              J ustioe
                                                                                                 stice
                                                                    Drua
                                                                    OnIa Eafoo:em~nt
                                                                         Earon:em~nI AdmininralioD
                                                                                     Admininr. ,i"D




       .......dro.go.'                                              w....
                                                                     ..... ngron. D,C
                                                                                  D.C.. 205)1
                                                                                        lOB1
                                                                       M~Y
                                                                       MAY 1 9 10 10
                                                                                  10.,

       ME,\M1ORMpVM
       ME    ORANWIM

                         Mu:!...1 D. GwJedSC
                         ........... , lnspcI:lor Gmcnl
                             for """I...   ion orod lnJpe<1ions Divi ......
                         Office of!he I.. pee .... GcnmoI

       FROM,
       Fl\OM:            " ...,nM. foley         ~. l--"
                         Aobn, O<-pu.~ Chio~
                         Offi<-<, of InspcI:lKNu

       SU IlJ ECT
              ECT,,      DEA', 11.
                                R"""""",
                                   ..."""'" 10 the 0113 Oraft
                                               !he OIG  Dfaft lI.epor\
                                                              R"""n:: RR...
                                                                        e>~     of'~ Dtpa_'s
                                                                           it-w ""M  Dtpan-.u ~ """"",Ii""
                                                                                                I'"""",ti""
                             up"nd",
                         '" RupooNi   '" "~ W          "'.If      v..,,,,,,,-
                                                                         Inrl<k~'
                                                _ "'Man On".",,,;,,,, I«ilkn'
                                            wMpIM

       ",. Dtus Enforutn<ft'
       The DruJ Enfo<=n«ll J\<lmmiotnolion        c.. """"'ed
                             i\dminI"",1ion (DEAl "-  "' ......'0<1 "'" ~ of lllSlio.o
                                                                    the O<puun<l11 J",,;« (ool)
                                                                                          (DO/) Offioc:
       ofllx
       oflho Impo<lOr
              WpI'<IOl' 0rn<RI",     (OIG) Draft
                        GrnmI'1 (0113)            R(pOrl u~«I.
                                           DrIft 1\(pOII uaod. ItR...,i ...,""M
                                                                            "'1M Dtpllfl1llrnl"s      Pr<ptUGIWtr 10
                                                                                     DtpllfImrnl:' i'r<pIlI"tl/Wfr  kI
       Rupc-w/ ..
       R<>pOIId        11'",_
                '" a~ wMpIM of.lf  .lfan  Du"'"m''"" 1",,1,"",.
                                      an Dts,_~                  A·~. Allbouill!he:
                                                      I",U... ,. ,j.]i){)9..(}i)6   AllIIougll the ~ons
                                                                                                     ~""" in
       llu.
       W' r<pJ<1  arc d,rected
            '"""" ate           '<> DOl.
                       d"'« 1ed '"  DOl, DE.>.
                                          DEA 1'provi&:>     f<>llo";n." I"onn.ol
                                                         the follo";nl
                                                 " ..;00 Ih<                fi:onn,ol ....
                                                                                      response   '0 o.ddr<so. portion
                                                                                           ponoe 1O..w,..,...  po<tion of
       the rcpon .....
       !he       that DEA    """,idt-n 1""""",,,,<.
                       DE.>. """"iden    inocanl<.

       s" .-pmr. ~' ",b"
       s~ "'p",,,n, MA" th at IA
                         t~aI tb~~ f~' BI
                                       Bf "IuI8'/)'
                                          ",uf~'lf "",4",,.            ln I~ "'
                                                               parrldpat6/tt
                                                    ClMdu<" '" panldpa       " ".' ID ...",....
                                                                                      _         .. a_~
                                                                                                    ...:ba,
       ".,.;1.
       pap JI.

           DtA R.,poan poo ..:, DE.>. putici .... cd in >c>enl
                                D~ putici.,.,cd           ~ ~.uo.w  ~.uc-t Le<."d
                                                                                te--.I WMD ...       ad_ 0.,
                                                                                                  uaci-.            June 22 and
                                                                                                                On)"""         ond
                 2OOl. DEA
           2J, lOOl.
           lJ.                rn~ and
                       DE.>. n'lPP       ond dtployod
                                             dq>loycd 69 pmonnd                Notional w 'oI EAad""
                                                              penonnel in N.,ionai                  E.. ....i.. "P""""Ic"
                                                                                                                "PiMo<:!e"
           (Oo!bteal:
           (~of         of A ..... Inn
                           Avian   lnn ....... ond
                                               orod  terron" _ ..
                                                     1m"On"     thnoaIs of.
                                                                        of. WMD .'lACk                  _i_lion wi
                                                                                       olllcl:)) ., In """jUDe",,"    withth Ih<
                                                                                                                              the
           ..
           ... era .. oa:nario.
               era><  ocerwio, the DEI.     DepuIy Admini_
                                     DEA Dopul)'      Admini.....,.. """      ..nod with DE!.
                                                                        "",".mod            DEA ladtnhip
                                                                                                     lta6tnhip lind  """"""led
                                                                                                                   onoI oonducIo<I
           brier."" ",pnI;n8
           brier...,.  ~ptd'n8 an oaen<Ytmttll¢l>tY
                                     ~~ ....,.,.,..,          response 10 the f.Obl...",
                                                                                  ubI...... ..
                                                                                            • • aci        p","""", 10 !he:
                                                                                                ad ... ............      ....
           "'=,..
           "'.... ,.. S<en&rio.
                      soc:nario, OEA
                                 DE!. lead"""'p,           i"do.de the Deputy
                                        l.e>d<nlup, 10 "",I..o.1h<       Dqouty Admini.In"",
                                                                                   Adm"u.tn"'" and            the AdmuuJ<ntor.
                                                                                                         ond Ih<  AdmonillnlOr.
           rl<ployod      <n"I<rs<Roy .ll":m'
           deployod 10 cmcrsmcy       &ll<mlIl<''' 1..,.,iorIs ,., funher
                                                   """''" .... 10  funh,:,. "'II&"   in Ihe
                                                                            tr\lII&< In      ""ad
                                                                                        the ....  aci .. 1OUI.lIio.
                                                                                                           scenario.

           On June
                 J.... 21. 2006,
                           2006. DEA    ... gap ond
                                 DEI. m,...,      orod depk»'od    penonnel in ~
                                                       d<pk»td 6<1 penonn<l     N.tiOIIIl .. >'d Eutcl
                                                                                 .IionaI,Le\Id   Eurci..
           -r....."Onl Challrn
           "f""''lJd            ...... PEA
                        ClIolI""ge··   DE.>. I..oodenhip.
                                             Load<niup. 10 include   tho Dq>uIy
                                                            i""I..o. the Dqouty Admini ......... participated
                                                                                                 part,,;patcd in
           Qu ....
           Ihi    = ...
               . e>aci ...




U.S. Department of Justice                                                                                                           58
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            59
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX VII: OIG ANALYSIS OF THE DRUG ENFORCEMENT

                  ADMINISTRATION RESPONSE



       The Office of the Inspector General provided a copy of this draft
report to the Office of the Deputy Attorney General for comment. A copy
of the report was also provided to the Drug Enforcement Administration.
The DEA provided general comments on one area of the report. The DEA
did not respond to the recommendations because they were directed to
the Office of the Deputy Attorney General. The DEA’s response is
included in Appendix VI of this report. The OIG’s analyses of the DEA’s
general comments are discussed below.

       Summary of the DEA Response. In response to the OIG’s
conclusion that no Department component other than the FBI regularly
conducts or participates in WMD response exercises, the DEA stated that
it participated in several National Level Exercises to respond to a WMD
incident. Specifically, DEA stated that on June 22 and 23, 2005, it
engaged in the National Level Exercise “Pinnacle,” which was an exercise
to respond to an outbreak of avian influenza and terrorist threats of a
WMD attack. During the exercise, DEA leadership conducted briefings
regarding an agency emergency response to the exercise and deployed to
emergency alternate locations to further engage in the exercise scenario.
In addition, on June 21, 2006, DEA leaders participated in the National
Level Exercise “Forward Challenge that involved a WMD scenario.” Also,
the DEA deployed personnel to emergency relocation sites as part of
National Level Exercises in 2007 and 2008 that dealt with WMD
scenarios. The DEA stated that it had provided this information to the
OIG to update the draft report, but the information was not included.

       OIG Analysis. The OIG did not include this information in the
report because the DEA’s participation in these National Level Exercises
was limited to exercising elements of its Continuity of Operations Plan
(COOP). In fact, National Level Exercises “Pinnacle” and “Forward
Challenge” were designed by the Department of Homeland Security
specifically to test COOP preparedness, not the operational response to a
WMD incident, which was the subject covered by our report. Similarly,
the DEA’s deployment of personnel to relocation sites as part of National
Level Exercises in 2007 and 2008 was related to testing its COOP
preparedness. As we informed the DEA, and made clear in our report,
COOP preparedness, including the participation in COOP-related
exercises, is not the subject of this report.



U.S. Department of Justice                                            60
Office of the Inspector General
Evaluation and Inspections Division
       In addition, we note that during our interviews with DEA
emergency management officials, they had stated that the DEA did not
participate in the emergency response operations portion of the National
Level Exercises and that the DEA had not participated in any exercise
that included an on-site simulation of a WMD incident. Furthermore,
the DEA was not listed as a participant in the National Level Exercises of
2005 (TOPOFF 3) or of 2007 (TOPOFF 4), which were the National Level
Exercises that involved responding to a WMD incident.




U.S. Department of Justice                                              61
Office of the Inspector General
Evaluation and Inspections Division
